<html>
<title> - ENSURING AND ENHANCING U.S. COMPETITIVENESS WHILE MOVING TOWARD A CLEAN ENERGY ECONOMY</title>
<body><pre>[Senate Hearing 111-1206]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1206
 
ENSURING AND ENHANCING U.S. COMPETITIVENESS WHILE MOVING TOWARD A CLEAN 
                             ENERGY ECONOMY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
  95-163 PDF                    WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                              
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 16, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     7
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    15
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    16
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    17
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    18
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    44
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................   220

                               WITNESSES

Doerr, John, Partner, Kleiner Perkins Caufield & Byers...........    21
    Prepared statement...........................................    24
Krenicki, John, Vice Chairman, GE; President and CEO, GE Energy 
  Infrastructure.................................................    44
    Prepared statement...........................................    46
    Responses to additional questions from Senator Vitter........    54
Wong, Julian L., Senior Policy Analyst, Center for American 
  Progress Action Fund...........................................    56
    Prepared statement...........................................    58
    Response to an additional question from Senator Boxer........    71
Alford, Harry C., President and CEO, National Black Chamber of 
  Commerce.......................................................    74
    Prepared statement...........................................    76
    Responses to additional questions from Senator Inhofe........   172

                          ADDITIONAL MATERIAL

Statement of the Portland Cement Association.....................   227
ExxonMobil Public Information and Policy Research reports for 
  2003-2005......................................................   243
Exxon Mobil Corporation 2006 Contributions and Community 
  Investments....................................................   265
Exxon Mobil Corporation 2007 Worldwide Contributions and 
  Community Investments..........................................   272


ENSURING AND ENHANCING U.S. COMPETITIVENESS WHILE MOVING TOWARD A CLEAN 
                             ENERGY ECONOMY

                              ----------                              


                        THURSDAY, JULY 16, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Klobuchar, 
Whitehouse, Udall, Merkley, Voinovich, Barrasso, Bond, and 
Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everyone.
    Welcome to our distinguished panel. We are very happy that 
you could join us. Some of you have been here before. I am 
looking at Mr. Doerr, who has been just remarkably available to 
this committee. We are so grateful to all of you.
    Today's hearing will focus on creating clean energy jobs 
right here in America and ensuring that this country is the 
world's economic and technological leader in the 21st century. 
Our witnesses today will testify about the powerful incentives 
for investment that well-crafted clean energy legislation will 
provide.
    When we unleash the American innovative spirit, we will 
drive economic growth and create jobs and create whole new 
industries here at home. American entrepreneurs will create 
jobs, including jobs building wind turbines so that we can 
export those to the world, jobs installing solar panels on 
homes and businesses, and jobs producing energy efficient 
products and a new fleet of electric and hybrid vehicles.
    At the same time, we must ensure that our existing 
industries receive fair treatment as we transition to a clean 
energy economy. We need to make sure that our industries that 
require a great deal of energy operate on a level playing field 
with manufacturers in other countries.
    We also have to make sure that our consumers are kept whole 
during the transition. You are going to hear some wildly 
differing views on how much it is going to cost consumers. But 
we have the modeling, and we know what it is. We know what the 
Waxman-Markey bill shows. And in our Senate work we are going 
to do even more to protect consumers.
    The legislation recently passed in the House contains 
several provisions to assist industries that are energy 
intensive and that are subject to internal competition. We are 
carefully reviewing these provisions as we do more work on that 
bill.
    At the end of the day, our competitiveness in the world 
economy will depend on how we face the challenge of global 
warming. I believe strongly that Thomas Friedman got it right 
in his book when he wrote that the ability to develop clean 
power and energy efficient technologies is going to become the 
defining measure of a country's economic standing, 
environmental health, energy security and national security 
over the next 50 years.
    Other countries, especially China and Germany, are already 
building their clean energy industries. I believe that when we 
pass strong clean energy legislation that cuts our dependence 
on foreign oil and protects our children from pollution, we 
will also provide the impetus that will restore American 
leadership in the world economy.
    I alluded to the distinguished members of our panel. But I 
wanted to mention now that we will hear from, after we hear 
from colleagues, and colleagues I am asking you to keep your 
comments to 3 minutes if you can, as I did, John Doerr, 
Partner, Kleiner Perkins Caufield & Byers; John Krenicki, Vice 
Chairman, General Electric, President and Chief Executive 
Officer, General Electric Energy Infrastructure; Julian Wong, 
Senior Policy Analyst, Center for American Progress; and Harry 
Alford, President and Chief Executive Officer of the National 
Black Chamber of Commerce.
    So, with that, I will turn to my Ranking Member.
    Senator Inhofe. Thank you, Madam Chairman.
    Do not start the clock yet because I want to clarify 
something. Our side wants to have a full 5 minutes, up to 5 
minutes. I would ask, respectfully, that they be granted that. 
That has been kind of our tradition, that is what I did when I 
was chairing----
    Senator Boxer. Well, I would debate that is what you did 
all of the time----
    Senator Inhofe. Always.
    Senator Boxer. Well, absolutely, they can have up to 5 
minutes. I was just asking out of courtesy because, the last 
time we did this, we did not get, we had a problem and we had 
to----
    Senator Inhofe. Yes, I think that the gravity of the nature 
of this hearing----
    Senator Boxer. Right.
    Senator Inhofe. I think it is important to----
    Senator Boxer. Right. I think colleagues have to decide if 
they want to speak their opinion or hear some views and then 
ask questions. It is up to everybody to decide that.
    Senator Inhofe. Thank you. That is very fair.
    Senator Boxer. Absolutely. So, let us start the clock at 5 
minutes.
    Senator Inhofe. All right.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I would welcome our witnesses today, 
particularly Harry Alford. We have met before, and you have 
been here, and you represent a very fine group.
    I think Harry, as well as many in this country, would say 
that today's hearing rests on some faulty logic, which kind of 
goes as follows: If Government imposes taxes and mandates, 
increases bureaucracy and spends without restraint, then 
Government can transform the economy and create jobs. This is a 
faulty logic of cap-and-trade designed to hide in cap-and-trade 
what it truly is.
    I have often said, and you have heard me say it, that if 
you want to do this, which is come out and get rid of, reduce 
the CO<INF>2</INF>, just have a tax on it. That is 
straightforward, and you do not have to hide anything, and 
everybody would know what it is.
    The Democrats should familiarize themselves with the work 
of Christina Romer, who is the Chairman of President Obama's 
Council of Economic Advisors. She has published multiple 
studies on the impact of tax policy changes over the past 100 
years. What she found was straightforward. She concluded: ``Tax 
increases appear to have a very large sustained and highly 
significant negative impact on output.'' In other words, as the 
Wall Street Journal stated, tax hikes are anti-stimulus.
    Let us be clear. Waxman-Markey is a tax increase on the 
American people, and that is the whole point of cap-and-trade, 
which is to make energy more expensive so that we will use less 
of it. We have many quotes along that line.
    With that in mind, I read an economic analysis of the 
Waxman-Markey Commission by Harry's group, the National Black 
Chamber of Commerce. The report found, and I am quoting from 
your report now, Mr. Alford, claims that greenhouse gas cap-
and-trade can boost total employment have become commonplace. 
These claims are incorrect, and the hopes that spring from them 
are destined to lead to disappointment.
    Waxman-Markey supporters say the bill will create green 
jobs. That is fine. I support such jobs. But, as the Black 
Chamber study found, the number of these new green jobs will be 
lower than the number of other jobs that might be created, in 
other words, the green jobs.
    In total, the Waxman-Markey would cause a net reduction of 
somewhere between 2.3 million and 2.7 million jobs. Again, that 
is a net reduction. That is taking all of the green jobs that 
are out there, and then doing your math. So we will want to 
talk a little bit about that during the question time.
    Now, this is a fact that the cap-and-traders do not want 
the public to know. In the final analysis, despite what its 
supporters say over and over again, Waxman-Markey is not a jobs 
bill, it is a big bloated Government spending program.
    We heard claims about the Government creating jobs before, 
earlier this year. The Obama administration said, let us do a 
$787 billion stimulus bill, and it is going to create jobs. And 
at that time, they were saying that the jobs were going to be 
reducing by increments that actually were pretty well 
published, and at the time of the passage, Obama said the 
stimulus would create or save 3.5 million. But since that 
promise, unemployment has increased from 8 to 9.5 percent, 
hitting a 26-week high.
    As Morton Zuckerman wrote in the Wall Street Journal, the 
cumulative job losses over the last 6 month have been greater 
than for any half-year period since World War II, including the 
military demobilization after the war.
    So, I think we need to take the analysis a little bit 
further. And the so-called jobs bill is a 1,000-page 
contradiction which its supporters implicitly acknowledge but 
do not want to talk about.
    So, I ask, why does a jobs bill include the Unemployment 
Insurance Program? Why does a jobs bill include Federal 
assistance to relocate people who lose their jobs because of 
the legislation? It is written into the legislation. It 
presumes that is the case, and I believe it is. If the bill 
actually creates jobs, then there would be no need for any of 
this, no need for a section on unemployment benefits, job 
relocation and all the rest of that.
    The Republican plan is different. It rejects new taxes and 
mandates and instead encourages open access to domestic energy 
resources, removes barriers to innovative clean energy and so 
forth.
    We have taken the position that we want all of the above. 
We want renewables. We also want clean coal technology. We want 
nuclear. We want oil. We want gas. We want all of the above. 
And I would remind this panel, I do not think I have to, but we 
are the only country in the world that does not exploit its own 
resources. I think that is what is going to have to quit for us 
to become energy independent.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I want to welcome our witnesses today, especially Harry 
Alford, president of the National Black Chamber of Commerce. 
It's good to see you again, Harry, and I look forward to your 
testimony.
    I think Harry, as well as many in this country, would say 
that today's hearing rests on faulty logic, which goes as 
follows: if Government imposes taxes and mandates, increases 
bureaucracy, and spends without restraint, then Government can 
transform the economy and create jobs.
    This is the faulty logic of cap-and-trade, designed to hide 
what cap-and-trade truly is--a massive new tax on American 
families--and what it would do--destroy jobs here at home and 
send them to China and India.
    The faulty logic of cap-and-trade has no basis in history. 
The Democrats should familiarize themselves with the work of 
Christina Romer, who is chairman of President Obama's Council 
of Economic Advisors.
    Before she became a White House economist, Romer published 
multiple studies on the impact of tax policy changes over the 
past 100 years. What she found was straightforward. She 
concluded that ``tax increases appear to have a very large, 
sustained and highly significant negative impact on output.'' 
In other words, as the Wall Street Journal wrote, ``tax hikes 
are an anti-stimulus.''
    Let's be clear: Waxman-Markey is a tax increase on the 
American people. That's the whole point of cap-and-trade, which 
is to make energy more expensive so we use less of it. You 
could call it tax and ration.
    With that in mind, I read an economic analysis of Waxman-
Markey commissioned by Harry's group, the National Black 
Chamber of Commerce. As the report found, ``Claims that GHG 
cap-and-trade can boost total employment have become 
commonplace . . . these claims are incorrect, and the hopes 
that spring from them are destined to lead to disappointment.''
    Waxman-Markey supporters say the bill will create ``green 
jobs.'' That's fine, I support such jobs, but as the Black 
Chamber study found, ``the number of these new `green jobs' 
will be lower than the number of the other jobs that [Waxman-
Markey] would destroy elsewhere in the economy.''
    In total, Waxman-Markey would cause a net reduction of 2.3 
million to 2.7 million jobs. Again, that's a net reduction, 
including green jobs.
    This is a fact that cap-and-traders don't want the public 
to know. In the final analysis, despite what its supporters say 
over and over again, Waxman-Markey is not a jobs bill, it's a 
big Government pink slip.
    We heard similar claims about Government creating jobs 
before. Earlier this year, the Obama administration and the 
Democrats said the $787 billion stimulus bill was desperately 
needed to create jobs. They sold a big Government spending 
bonanza as a jobs bill. So what's happened since the stimulus 
bill became law on February 17th?
    Thanks to Vice President Biden, we know that the 
``Administration misread how bad the economy was.'' At the time 
of passage, President Obama said the stimulus would create or 
save 3.5 million jobs. But since that promise, unemployment has 
increased, from 8 percent to 9.5 percent, hitting a 26-week 
high.
    As Mort Zuckerman wrote in the Wall Street Journal, ``The 
cumulative job losses over the last 6 months have been greater 
than for any other half-year period since World War II, 
including the military demobilization after the war.''
    So the question is: how can you trust those who now talk 
about creating green jobs, when under their watch, and I would 
argue because of their policies, more and more people are 
losing their jobs? In the case of Waxman-Markey, the same 
advocates of the failed stimulus bill are pushing another big 
Government scheme to ``create'' jobs. It hasn't worked with the 
stimulus, and it won't work with cap-and-trade.
    Let's take this analysis a step further. This so-called 
jobs bill is a 1,400-page contradiction, which its supporters 
implicitly acknowledge but don't want to talk about. So I ask: 
why does a jobs bill include an unemployment insurance program? 
Why does a jobs bill include Federal assistance for relocation 
and job searching?
    This bill hands out pink slips to workers and then promises 
the unemployed that they will get assistance from the 
Government. Message to the Waxman-Markey unemployed: don't hold 
your breath.
    If this bill actually created jobs, then there would be no 
need for any of this. The Republican plan is different; it 
rejects new taxes and mandates and instead encourages opening 
access to domestic energy resources, removing barriers to 
innovative clean energy technologies and allowing all forms of 
energy to power this great machine called America.
    We don't have unemployment provisions in our plan because 
it puts people to work, right here at home. That means a 
stronger economy and a Nation less dependent on foreign energy.

    Senator Boxer. Senator, you ended exactly at 5 minutes.
    Senator Inhofe. I did.
    Senator Boxer. Congratulations.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    To our witnesses, good morning, everyone. Thank you very 
much for joining us. It is great to see some of you back again 
and others to be with us for the first time.
    I must say, I step back just a moment and say that I find 
it ironic, as some of colleagues demonize cap-and-trade, that 
to the extent that I studied anything as an undergraduate at 
Ohio State, I studied economics. One of the things that has 
fascinated me for a long time, both in my time in the Navy, my 
time as Governor, and here in the Senate, was how to harness 
market forces to shape public policy behavior, the kind of 
public policy behavior that we want.
    I am amused that sometimes people say, well, why do we not 
just have a tax, put a tax on carbon? A lot of times I think, 
would those people really vote for a tax on carbon? I do not 
think that they would. So, a lot of times I find that the 
people who call for a tax on carbon would not vote for one 
anyway.
    I never heard much of cap-and-trade, in fact, until 1990 
when a fellow named George Herbert Walker Bush, our President, 
in signing the Clean Air Act into law, called for establishing 
a cap-and-trade regimen to help deal with a problem called acid 
rain. We had a problem with too much sulfur dioxide largely 
coming out of coal-fired plants in the Midwest, putting a lot 
of sulfur dioxide into the air and destroying our forests and 
our rivers, lakes and streams in the Northeastern part of our 
country.
    By golly, people said, well, we think it going to work. But 
we have to put a very big price on sulfur dioxide if we are 
going to put in a tax. So, it turns out we did not put in a 
tax. We used a cap-and-trade approach.
    And we ended up with a price on sulfur dioxide that is less 
than half of what it was expected to be. It worked. It worked 
then, and I think it is regarded as maybe one of the most, 
maybe the most, successful environmental program that we have 
had in this country, certainly in my lifetime. So, I just ask 
my colleagues to keep that in mind.
    We have a number of States who have in recent years, 
because of the inaction here in Congress, decided to take 
matters into their own hands. They have adopted, as part of 
RGGI, adopted cap-and-trade systems on their own. We have done 
that in Delaware. I do not think anyone has really noticed if 
you want to know the truth. But we are actually realizing 
several millions of dollars to be able to put into clean energy 
initiatives, and those are creating jobs and also doing good 
things for the quality of our air.
    The last thing I would say, and I love to quote Albert 
Einstein, and I am the only person on this panel that ever 
quotes him for some reason. But among the things that he says 
is, in adversity lies opportunity.
    We have plenty of adversity in this country today. As we 
all know, aside from our economic challenges and challenges in 
Iraq and Afghanistan and the Middle East and all, we face huge 
problems with people looking for jobs, losing jobs and not 
being able to provide for their healthcare and other needs of 
their families.
    Where we face challenges is with a huge trade deficit, and 
about one-third of that is related to the consumption of oil. 
What we need to do is to turn that challenge into building 
vehicles that will dramatically reduce our dependence on 
foreign oil, vehicles that we can build here. We can build the 
components here. We do the R&D here. And we sell them here, and 
hopefully export that technology abroad. That is making sure 
that opportunity comes out of adversity.
    We have problems, still, with too much sulfur dioxide, 
nitrogen oxide and mercury going up into our air. We have 
perfected technology that will enable us, over the next several 
years, to reduce by 90 percent the amount of mercury emitted 
from coal-fired power plants. Ninety percent.
    Today, there are about 600,000 women carrying children 
onboard, and the moms have high levels of mercury in their 
bodies. They are going to give birth to babies with, in many 
cases, brain defects. We have the ability now, for about $1.20 
a month on a family's utility bill, to cut in half that number 
of 600,000, bring it down to 300,000, and hopefully, further 
beyond that.
    That is taking a challenge and making something good come 
out of it. And an economic opportunity that will enable us to 
take that technology for reducing mercury by 90 percent in 
emissions from coal-fired plants and sell that technology all 
over the world.
    So, I would say to my colleagues, we are lucky to have this 
panel here. I do not know some of you well, but some of you I 
know pretty well. I especially look forward to hearing from 
John Doerr again. I am hoping that he will tell us, it is 
advice that I have heard him give before, what are the three 
most important things that we can do in order to make sure that 
we do find that opportunity, that pony in that pile of manure, 
if you will, and find that opportunity that we all looking for, 
the economic opportunity. It is here, if we are smart enough to 
find it.
    Thank you so much.
    Senator Boxer. Thank you so much, Senator.
    Let us see. According to arrival, I have got this list. Let 
us see if this is right. I have got Barrasso, Bond, Alexander, 
and Voinovich. Does everyone agree?
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman.
    I want to welcome our guests.
    Madam Chairman, the Waxman-Markey bill has been entitled 
the American Clean Energy and Security Act. It is also known as 
ACES. And ACES to me is a bad bet, a bad bet for enhancing U.S. 
global competitiveness and for creating jobs.
    The American people do not want Congress gambling with 
their future. With the so-called stimulus bill, taxpayer money, 
I thought, was gambled on the bet that 3.5 million jobs would 
be saved or created and unemployment would not exceed 8 
percent.
    The supporters of ACES claim that this bill is not so much 
a climate change bill, they claim it is more of a jobs package. 
They say it is going to create 1.7 million jobs, new jobs, 
green jobs.
    Well, this might make sense to people inside Washington, 
but I think most folks outside the Beltway would find it odd 
that this so-called jobs package includes language that 
subsidizes and retrains workers who lose their jobs because of 
the bill.
    The authors of this bill, to me, are overstating their 
case, and the taxpayers should be concerned about taking 
another major gamble in allowing for this massive energy tax 
scheme to pass.
    The United States cannot be competitive with foreign 
countries if we increase the costs of doing business in the 
United States. China and India have not accepted the 
Administration's leadership on this issue, especially when 
binding limits were proposed by the Administration to the 
Chinese at the Group of Eight Summit last week. According to 
the New York Times yesterday, Chinese officials have 
strenuously opposed binding limits on emissions of greenhouse 
gases by developing countries.
    Professor Pan Jiahua, one of China's top advisors on 
climate change diplomacy and economics, was quoted in the 
Sydney Herald in the weeks leading up to the summit as saying 
that China is not at all impressed with Obama. Obama's 
statements are certainly insufficient, he says, and his demands 
for developing countries are unrealistic.
    So to me, no action by the United States in slowing down 
and limiting our own economy through a cap-and-trade scheme is 
going to change China's position.
    In the New York Times today, American Officials Press China 
on Efforts to Curb Greenhouse Gases. A little before this 
committee met, I visited with Governor Huntsman from Utah, who 
has been nominated to be Ambassador to China, about this 
specific article. There is a picture of Secretary of Energy 
Chu, who is in Beijing.
    In today's New York Times, they talk about Secretary Chu. 
It says if China's emissions of global warming gases keep 
growing at the pace of the last 30 years, the country will emit 
more such gases in the next three decades than the United 
States has in its entire history. Now, this is not me. This is 
said by Mr. Chu, a winner of the Nobel Prize in Physics.
    So that is what we are looking at. To me, our Nation must 
remain competitive globally. To do so, we need to make 
America's energy as clean as we can, as fast as we can, without 
raising energy prices on American businesses and on American 
families.
    Our end goal must be to do everything we can to keep the 
jobs that we have now in the United States and then also find 
ways to add more green jobs. Americans want all of these jobs 
and more. We need them all.
    Senator Carper left. He said no one on the committee ever 
quotes Einstein. You know, Einstein had his magic formula, E 
equals MC squared. I do not want to quote the specific formula, 
but to paraphrase, to me energy is the E and MC means my 
country. Energy for my country squared. That is the way we get 
energy independence.
    Thank you.
    Senator Boxer. OK. Let me put into the record the article 
that you quoted. I think that was really good that you brought 
it up. I will put that article into the record.
    But, there is also an article in the Washington Post that 
talks about how the leaders of Asia are ``pouring money into 
renewable energy.'' I think we will hear more about that from 
folks who have spent time over there. But I will address your 
other comments when I get a chance in my 5 minutes.
    So, we will move now to Senator Bond.
    [The referenced articles follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair, and thank 
you to our distinguished witnesses. I am particularly delighted 
to see a distant cousin, Mr. Doerr, as we pronounce it from the 
original German.
    We will have other discussions about the investments that 
China is making, which is good, in clean energy, but I also 
agree with China that they are not going to accept something 
like our cap-and-trade.
    We are here today to talk about jobs. We have a disturbing 
report that will be presented by Mr. Alford that cap-and-trade 
legislation will kill millions of U.S. jobs, even after 
including green job gains.
    The National Black Chamber of Commerce, as the Ranking 
Member has outlined, commissioned an economic analysis of the 
House bill which found that ``cap-and-trade would cut net 
employment by 2.5 million jobs per year, even after accounting 
for new green jobs.'' And next week we will have an opportunity 
to talk about jobs, green jobs that are productive and green 
jobs that are simply subsidized, to a great extent, by the U.S. 
taxpayer, us.
    It is important because, no matter what you say about green 
jobs, we will have under Waxman-Markey significant job loss. 
The higher energy costs will make it desirable to have green 
jobs. There are green jobs that we must pursue. But we can only 
afford to buy so many.
    The findings of the National Black Chamber of Commerce 
shows that there will be 2.5 million more jobs killed than 
created. Some have tried to question the integrity of the 
chamber, but I do not. What I do question is how we would even 
consider killing 2.5 million jobs in America when we are in the 
middle of the worst recession since World War II and suffering 
high unemployment.
    The chart here shows the current unemployment rate in each 
State. The darker States are those suffering unemployment rates 
over 10 percent: Indiana, Michigan, Ohio, Florida, and North 
Carolina. My State of Missouri, regrettably, is up there at 9 
percent. We see the Midwest and the South are currently 
suffering some of the highest rates of unemployment in the 
Nation. Why would we hit that region with more job loss?
    Cap-and-trade would hit the Midwest and South with higher 
power bills. Now, this chart calculates a State-by-State 
increase in power bills in 2015 from Waxman-Markey. It is based 
on data from the U.S. Energy Information Administration, as 
well as the National Black Chamber of Commerce. The darker 
States represent those States which will suffer power bill 
hikes of over $500 million per year, States across the Midwest 
and South.
    Cap-and-trade is a double-barreled shotgun of lost jobs and 
higher energy taxes pointed at the Midwest and the South. We 
must ask ourselves, who will we hurt when you take their jobs 
and raise energy costs? Who are these Midwestern manufacturing 
workers suffering now and who will suffer more?
    Here is the cover of the New York Times Magazine from June 
28th. It is a picture of Augustine Powell and his son, Marvin. 
Their story is entitled, GM: Detroit and the Fall of the Black 
Middle Class. As the story describes, the Powell family left 
the South in the 1960s seeking better opportunities in the 
North in the auto industry. ``Now the life that they built is 
in danger of slipping away.''
    A good paying manufacturing job in the auto industry gave 
the Powells a middle class way of life: healthcare, education, 
vacations. The Powells were able to leave the city of Detroit 
for a quiet, racially integrated suburb of modest middle-income 
homes north of the city. Now, families like the Powells and 
plenty of families like them at closing assembly plants in 
Missouri are threatened of falling out of the middle class and 
slipping down into the working, or even out-of-work, poor.
    My fear is that what the recession and the faulty 
management decisions did to the auto industry the U.S. Congress 
is planning to intentionally do to the rest of the U.S. 
manufacturing in the Midwest, killing our jobs and driving many 
overseas to China.
    For the sake of the Powells and millions of threatened blue 
collar workers like them, I urge my colleagues to oppose job 
killing and energy tax raising cap-and-trade legislation.
    I thank the Chair.
    Senator Boxer. Thank you, Senator Bond.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much.
    I appreciate very much my friend from Missouri's passionate 
defense of union wage scales and the kind of middle class life 
that unionized employment can bring to the middle class. I am 
very glad to hear him make that point.
    We are in the middle of a very interesting debate here. 
There is an underlying premise to many of my colleagues' 
questions, which is that if we would just leave well enough 
alone, let the polluters continue to pollute for free, listen 
to the sweet nothings that the oil companies are dribbling into 
our ears, and continue the happy hemorrhage of billions and 
billions and billions of U.S. taxpayer dollars into the pockets 
of foreign nations that run oil economies, everything will be 
just fine.
    And it is only the dreaded interference in the economy by 
trying to impose some form of cost on companies that are now 
polluting for free that presents any downside to us.
    I wonder, starting with Mr. Doerr, if I may, if you have 
any thoughts on what the baseline proposition is here. Is the 
baseline proposition just a happy continuance of the status quo 
with no harm or cost to anyone and the downside on our side----
    Senator Inhofe. Is this an opening statement?
    Senator Boxer. This is an opening statement.
    Senator Whitehouse. I am sorry. I thought we are still on 
opening statements.
    Senator Inhofe. We are.
    Senator Whitehouse. Well, make that my opening statement. 
It is a tee up for the question to come.
    [Laughter.]
    Senator Boxer. Thank you very much, Senator.
    Now, next on our list is Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman. Thanks for 
having the hearing. And thanks to the four of you for coming.
    I am glad to have this discussion about jobs and to try to 
put it in some perspective. When I think of jobs, I think of my 
State. So here is what is going on in my State: people are 
looking for cheap energy.
    Alcoa shut down its smelter where my dad worked all his 
life. They are waiting for a cheaper electricity contract from 
TVA. A major air conditioning company in Fayetteville, they 
make a large percentage of all the air conditioners in the 
United States, tells me that if their electricity prices go up, 
they go overseas.
    Eastman Chemical has hired 10,000, 12,000, 14,000 people in 
the upper east Tennessee area for a long, long time. Natural 
gas is their feedstock. If their electricity and energy costs 
go up, overseas those jobs go.
    We are lucky to have big new computers coming into 
Tennessee, affiliated with the Oakridge National Laboratory. 
One reason they are there is that we have lots of low cost, 
reliable, cheap electricity. I believe computers are probably 5 
percent of our electricity use today.
    We are making solar power a major objective of our State. 
Our Governor is, which I totally agree with, trying to focus on 
research and development. And we have attracted two plants that 
make polysilicon. Each of those plants uses 120 megawatts of 
electricity. They are huge users of electricity. They would not 
be in a State or country where electricity costs are high. They 
want to be a place where they have cheap electricity.
    A third of our manufacturing jobs are auto jobs. They tell 
me, the suppliers, that every day they are looking at costs, 
and there are many costs, but if electricity costs go up a lot, 
energy costs go up much more, they will be in Mexico and Japan 
building cars instead of Tennessee and Michigan.
    And last December, 10 percent of Nashvillians, even with 
TVA's relatively low electric rate, said they could not pay 
their bills because the rates were too high.
    Somewhere in this debate I think we have overlooked the 
importance of cheap energy. Because high priced energy means 
jobs, which we are discussing today, go overseas looking for 
cheap energy. Also, we now are especially looking at clean 
energy. Senator Carper and I have introduced legislation 
several times to remove mercury and sulfur and nitrogen, and I 
believe we need to slow the use of carbon.
    Is there some way we can have carbon free as well as cheap 
energy? And I am wondering, and I hope to hear from the four of 
you, why the strange silence about nuclear power? Nuclear power 
produces 70 percent of our carbon-free electricity and solar 
and wind, and all of the things that you are writing about 
produce 3 or 4 percent of our carbon-free electricity. Oh, 6 
percent, excuse me.
    Mr. Doerr, I read your testimony. You went all the way 
through it without mentioning nuclear power. And I read the GE 
testimony, and GE has been a leader in nuclear power, and you 
do talk about it, but not about the future. It is all about 
wind. And I read the testimony about China, and it overlooks 
the fact that China is creating more new nuclear power plants 
than the rest of the world combined.
    So, if we are really serious about clean energy, as well as 
cheap energy, why this strange silence about nuclear energy 
when it is 70 percent of our carbon-free electricity?
    Maybe we need a nuclear power mandate for States. If it is 
not a renewable power, I mean, if it were included in the 
renewable power definition of the renewable mandate, Tennessee 
would be 40 percent clean. Not 20, but 40. So maybe we need a 
definition of clean energy that is 40 percent or 50 percent and 
includes nuclear power. And if it not a renewable power, maybe 
we need a clean energy mandate for base load power.
    But why the strange silence about this? We invented it. 
France is 80 percent nuclear. They have the lowest carbon 
emission rates, almost the lowest, and among the lowest 
electrical rates in the European Union. I am all for doubling 
our energy R&D, or even more. But I wonder why we seem to have 
a national windmill policy instead of a national clean energy 
policy, and I hope to hear more about that as we go.
    I have expired, Madam Chairman.
    [Laughter.]
    Senator Boxer. You have not expired.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    I would apologize, right from the beginning, that I am 
going to leave, after my words, because I am the Ranking Member 
on another committee, and we have two of the Administration's 
nominees up for confirmation. I just want you to understand 
that.
    The impact this legislation will have on jobs, workers and 
families is the heart of my concern with the Waxman proposal. 
Indeed, few regions of the country will be impacted more than 
the Midwest. Ohio gets 87 percent of its energy from coal.
    That this bill will cost my State and the country jobs, I 
think, is without dispute. Despite wild claims of green job 
creation, there is no credible analysis that suggests that this 
bill will be a net job creator. I think that Senator Inhofe did 
a good job and said the bill includes a provision called the 
Climate Change Worker Assistance Program which basically 
anticipates that we are going to lose jobs, and they are going 
to try to compensate for those lost jobs.
    It is interesting that we had a hearing with all of the 
coal producers yesterday, Senator Carper and I did, and they 
said that they are really concerned about the impact of this on 
manufacturing. We have got residential taxpayers whose energy 
bills will be impacted, but they are really concerned about the 
manufacturers.
    GE, you know, a lot of jobs are gone from Ohio. In 2007, 
425 jobs were eliminated. The company decided to close six of 
its U.S. lighting factories. Where are they making the products 
now? They are making them in China. It is our fault. Quite 
simply, we are not fostering an environment that is friendly to 
business.
    I saw what happened with the poorly calibrated energy 
policy we had toward natural gas. The spike in natural gas in 
2001 was the beginning of the recession in Ohio. And we 
definitely, I can show you thousands of jobs that we lost in 
chemical and plastic industries because of the increase in 
natural gas costs. And many of us believe that we are going to 
see a continuing increase in those costs because of this 
legislation, where many companies will be shifting from coal 
over to natural gas.
    The other thing that I think that we need to talk about, 
candidly, is that unless we can bring China and India and the 
other developing nations in to this new regime, no matter what 
we do, it will not matter. We asked the question yesterday of 
the six people that were at our hearing. I said if the United 
States shut down completely and had no greenhouse gas emissions 
and the developing countries continued to do what they were 
doing, what impact would we have? And the answer to that was 
zippo, nothing.
    And I think Senator Barrasso did a really good job today of 
quoting what is going on today in the world. In other words, we 
are in the real world. We are in a competitive environment, and 
we need to look at it.
    My feeling is that until we can sit down with the WTO and 
work out something in terms of folding in emissions in terms of 
the consideration of the WTO, our going ahead without that is 
just foolhardy.
    The other thing that I want to mention is this. The biggest 
problem that we have today in terms of emissions is coal. We 
have coal; the Chinese have coal. If we really wanted to do 
something about greenhouse gas emissions, we would have a, what 
did we call it when we developed the atomic bomb? What's the 
word? We would have a Manhattan Project that would get the best 
and the brightest people the world together to try to come up 
with technology that would capture and sequester coal, because 
I think that if we do not do that, we are finished.
    With the Chinese putting two coal-fired plants on a week, 
we are in trouble. And I think we need to reevaluate our 
priorities as to where we are putting our money. I am all for 
wind. I am for solar power. But by golly, we know that coal is 
going to continue to be a major producer of energy in this 
world, and unless we get it under control, we are in deep 
trouble.
    I want to thank you very much for your being here today, 
and I apologize for not being here to hear what you have to 
say. Hopefully, I will get back so I can hear some of the 
questions.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

                Statement of Hon. George V. Voinovich, 
                  U.S. Senator from the State of Ohio

    Madam Chairman, the impact this legislation will have on 
jobs, workers and families is at the heart of my concerns with 
the Waxman proposal. Indeed, few regions of the country will be 
impacted more than the Midwest. Ohio, which relies on coal for 
more than 87 percent of its electricity demand and has a large 
manufacturing base, has much to lose under this proposal.
    That this bill will cost my State of Ohio and the country 
jobs is without dispute. Despite wild claims of green job 
creation, there is no credible analysis that suggests that this 
bill will be a net job creator. In fact, the authors of the 
legislation included in the proposal numerous provisions to 
provide assistance to workers who will lose their jobs as a 
result of the program. For example, the bill includes 
provisions called ``Climate Change Worker Adjustment Assistance 
(CCWAA),'' which provides a form of unemployment insurance for 
those who are going to lose their jobs because of Waxman-
Markey. I find it very disturbing that this provision is 
included in what proponents are calling a ``jobs bill.''
    The job losses that will come from this legislation stem 
from the bill's overlapping and redundant requirements, 
including cap-and-trade provisions, an RES, and numerous other 
source specific requirements, many of which are unachievable 
with today's technologies. Recognizing the disconnect between 
what technology can deliver and the bill's objectives, the 
authors allow for up to 2 billion offsets annually to meet the 
targets. And because 1 billion of these offsets can be obtained 
from outside the U.S., what we're looking at is transferring 
tens of billions of U.S. dollars overseas to meet the bill's 
compliance obligations. Indeed, a simple calculation based on 
the bill's allocation formula and Ohio emissions reveals that 
Ohio families and workers would be subsidizing their 
competitors to the tune of $688 million (assuming a modest 
carbon price of $15 per ton) in the first year of the program 
alone. Perhaps the green jobs that the Waxman-Markey proponents 
are referencing aren't actually U.S. jobs, but jobs in China.
    I note that GE is here today to discuss competitiveness 
issues associated with this bill. Unfortunately because of 
increased globalization and ever complex and increasing 
environmental compliance, companies such as GE are shuttering 
many of their U.S. facilities, including some in Ohio, and are 
relocating to developing countries. Indeed, in 2007 about 425 
jobs were eliminated in Ohio when the company decided to close 
6 of its 26 U.S. lighting factories. And where is GE now making 
those products? China. I don't fault GE for this move. It's our 
fault: quite simply, we are not fostering an environment that 
is friendly to business. And this trend is nothing new. It is 
the continuation of a disturbing pattern that I fear will be 
exacerbated by the many overlapping mandates contained in the 
Waxman bill.
    Residential consumers, small businesses, manufacturers and 
industrial operations all depend on reliable and affordable 
energy. Poorly calibrated environmental policies have already 
resulted in sharp increases in energy and natural gas prices, 
impairing the competitive position of U.S. manufacturing 
companies in domestic and world markets. According to the 
Department of Labor, these increases have contributed to a loss 
of over 3.1 million U.S. manufacturing jobs.
    Many people engaged in this debate down-play the impacts 
that climate policy will have on our economy. And although the 
``green jobs'' movement as advanced by the environmental 
establishment is trying to convince us that rationing energy 
resources will save the world and our economy, there is little 
to support these claims. Cap-and-trade will not result in net 
job creation any more than it will result in reduced energy 
costs.
    Recognizing that the bill will put U.S. manufacturers at a 
disadvantage to overseas competition, proponents seek to offset 
compliance and fuel and input costs through a system of rebates 
and border tariff provisions. Yet many manufacturers from my 
State tell me that they don't qualify for the rebates and that 
the bill's costly requirements will force plant closures and 
relocation overseas. In fact, the president of US Steel, John 
Surma, representing a company supposedly protected by these 
provisions, recently told me that if the bill passes, no more 
steel plants would be built in the U.S. and that existing 
facilities would be phased out and moved overseas. This is bad 
for the environment and the economy. Similarly, the border 
tariff provision, a holdover from last year's climate bill, is 
of dubious merit. Even if it is found to be consistent with WTO 
requirements--and many believe that it isn't--the Obama 
administration does not support the provision, and it is 
therefore likely to be stripped before final passage.
    Yesterday, Senator Carper and I had a roundtable discussion 
on this bill and the future of coal. Witnesses included 
representatives from industry and environmental groups. There 
was much agreement, including recognition that the U.S. could 
eliminate all CO<INF>2</INF> emissions and global temperatures 
would not be impacted unless developing countries take similar 
measures. Meanwhile, China and India remain resistant to 
mandatory controls. This is not to say that we should do 
nothing. But the steps we take should be measured and 
consistent with the goals to be realized.
    So, Madam Chairman, I think we have a lot of work to do to 
get this right. My goals throughout this process are to keep 
the Nation's economy, and that of Ohio, on a sure footing while 
decreasing emissions. Congressman Waxman's bill just doesn't 
get the job done and in fact is a threat to the economy when 
people are already hurting.

    Senator Boxer. Thank you.
    Well, now we are going to move to our distinguished panel. 
And by the way, we are going to each have 7-minute rounds to 
question because I think we have a lot to learn from this 
panel.
    So, we are going to start with John Doerr, a partner of 
Kleiner Perkins Caufield & Byers. I would say, just for those 
who do not know Mr. Doerr, and most of you do, he has been 
involved in making decisions about the future that have proven 
right in a lot of very famous cases. I believe one was Google. 
Was one Amazon? So that is two.
    I think that, as we sit here thinking about the future, 
this is a man who has put his money on the future and that of 
his clients. So, I think that his words should carry some 
weight in the business community and also to elected leaders 
and to working people.
    With that, please go ahead Mr. Doerr.

 STATEMENT OF JOHN DOERR, PARTNER, KLEINER PERKINS CAUFIELD & 
                             BYERS

    Mr. Doerr. Thank you, Chairman Boxer, Ranking Member Inhofe 
and members of the committee.
    My name is John Doerr. I am a partner at Kleiner Perkins 
Caufield & Byers. I am here because America confronts three 
interrelated crises today: an economic crisis, a climate 
crisis, and an energy security crisis. But my message is about 
a fourth, and that is a competitive crisis.
    There is no topic of greater importance for America's 
economic future. The decisions you are going to be making are 
going to determine whether we lead or lag in tomorrow's global 
energy markets. And the difference between those two futures is 
really dramatic.
    In the United States alone, our energy costs are more than 
$1 trillion per year. That is for oil, coal, natural gas, 
nuclear and renewable energies. That is on top, that $1 
trillion is on top, of another $2 trillion that we spend on our 
homes, our shops, our factories and our cars. So, that is $2 
trillion a year that is at stake in the United States of 
America, right here, every year.
    Is that money that we want to send overseas to import oil? 
Are those goods we want to purchase from our competitors or 
make here in the United States? Do we want to produce that 
energy and make those goods and create those jobs here, or 
there? That is the question.
    Do we want to be the worldwide winner in the next great 
global industry, which is clean energy? We are clearly not in 
the lead today, and that position is held by China. China 
understands clearly that controlling its energy future is 
fundamental, and its commitment to develop and own the clean 
energy technologies and markets is breathtaking to me.
    China's cars are already more than one-third more fuel 
efficient than U.S. cars. China is investing 10 times more than 
the United States on clean power as a percent of GDP, 10 times 
more. And they are on track to deploy 120 gigawatts of wind by 
2020. That is equal to the entire global total and 10 times 
that of the United States. And, incidentally, it will create 
150,000 jobs.
    As a result, they are curbing their emissions substantially 
today compared to business as usual. In fact, they are going to 
abate 350 million tons of CO<INF>2</INF>, as much of all of 
Argentina emits.
    Now here is the point. The United States led in the 
electronics, the biotechnology, the information technology, the 
Internet, the IT industry revolution. But as we sit here today, 
we are in danger of letting the energy technology revolution 
pass us right by.
    What do Amazon, eBay, Google, Microsoft and Yahoo have in 
common? Those are the five global leaders in the IT industry, 
and every one of them is American. When you look at the global 
wind industry, look at the top five players, only one, General 
Electric, only one, is American. So, the United States is now 
home to only 1 of the 10 largest solar PD producers. Only 2 of 
the top 10 advanced battery manufacturers.
    I want to bring this home and make it very personal, 
Senators. The question is: when our sons and daughters go get 
jobs in the world's great new clean energy companies, are those 
companies going to be headquartered in China or the United 
States?
    I am an American engineer and businessman. My partners and 
I have helped build 500 new U.S. companies, creating 400,000 
jobs. In fact, just last month we announced 1,500 new jobs for 
a new American low carbon car company in Louisiana, with the 
support of Senator Vitter and other members of the delegation.
    So, I am trying to do my part. But I want to tell you, our 
Government's energy and climate policies are our principal 
obstacle to success. To repeat that, the current policies are 
the principal obstacle to creating even more new jobs in this 
next great global industry.
    You have not given us any clear, long-term market signal, 
to our companies or our consumers, that we value low carbon 
energy. We have no policies to discourage sending hundreds of 
billions of dollars overseas every year for energy. We do not 
even have adequate R&D to compete in this huge industry. So, 
today's policies are stifling America's competitiveness and 
America's entrepreneurs.
    Now, good policy can turn this around. We can turn this 
thing around and give us a fighting chance to lead in these 
industries. There are just four elements of really very good 
policies.
    Yes, Senators, the top three policies are to put a cap in 
price on carbon, a cap in price on carbon, and a cap in price 
on carbon. Easy to say. Why? Without a long-term market signal, 
without a cap on carbon emissions and a price on carbon, we are 
not going to get serious innovation at scale in our domestic 
markets, we are not going to create local demand, and we are 
not going to have great American success stories.
    There are other important policies. Let us get the rules of 
the road right for our utilities. Let us set smart standards 
that are steadily stronger so that America has the most 
efficient buildings, and the most efficient cars and appliances 
in the world. And let us be sure to take those savings and 
stuff them in the pockets of our consumers and our businesses. 
And as I have said before, let us get serious about research 
and development and deployment.
    These policies, they are proven. There is no risk in these 
policies. We have seen them work in other States and in other 
countries. They unleash America's competitiveness, tempered by 
market forces. They are broadly endorsed by multi-national 
companies and by the President's Economic Recovery Advisory 
Board.
    There is still time for us to get in this global race, 
although I am here today to tell you that the window is 
closing, and it is closing really very fast. We have got to 
have low carbon policies to exploit America's strengths, our 
innovation and our entrepreneurs.
    I understand that putting these policies in place is a 
pretty heavy political lift. But without a doubt, Senators, bad 
energy policy has cost our country dearly, and the costs of 
continuing it are incalculable. That is because our competitors 
have woken up. We need to do the same, or we are going to be 
buying our future from them.
    Thank you.
    [The prepared statement of Mr. Doerr follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Boxer. Thank you very much, Mr. Doerr.
    I just want to say something here. Because Senator Merkley 
is in between committees, I think it would be only fair now if 
he would like to make an opening statement.
    Senator Inhofe. That is fine.
    Senator Boxer. It is OK with Senator Inhofe.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair, and I 
will be very brief, that is to say that in Oregon, green energy 
jobs are growing at seven times the rate of other jobs in the 
economy. It is our brightest hope for putting our economy on 
track.
    It is my belief that our economy and our energy strategies 
are joined at the hip, and I am very interested in the details 
that you are presenting today. Because this committee has to 
figure out how do we take and produce a triple win, that is to 
end our dependence on foreign oil, which is costing us nearly 
$2 billion a day, and how many more jobs could we create if 
those funds are spent here in the United States, and I think of 
our increase in our national security. So, it is the impact on 
national security, the impact on our economy and creating jobs, 
and our impact upon the environment of this planet.
    All three are closely tied together. We need to make sure 
that we put the United States at the forefront of energy 
policies that will create stable, low cost energy over the long 
term, a strategy that will create jobs, and a strategy that 
will address global warming.
    So, I am deeply interested in your testimony, and thank you 
for coming today.
    Senator Boxer. Thank you so much, Senator.
    Now we will hear from John Krenicki, Vice Chairman, General 
Electric; President and CEO, General Electric Energy 
Infrastructure. Welcome.

 STATEMENT OF JOHN KRENICKI, VICE CHAIRMAN, GE; PRESIDENT AND 
                 CEO, GE ENERGY INFRASTRUCTURE

    Mr. Krenicki. Thank you, Madam Chairman, Ranking Member 
Inhofe and members of the committee.
    I am John Krenicki, GE Vice Chairman, President and CEO of 
GE Energy. I appreciate the opportunity to discuss global 
competitiveness in cleaner energy.
    GE believes that leadership in cleaner, smarter energy 
technology is vital to economic growth, job creation and energy 
security. This could become the dominant job creator of the 
21st century and companies, and countries that move quickly to 
seize that opportunity will reap the rewards going forward.
    Energy is a scale driven business. For the United States to 
lead in the area of clean energy technology, I believe we need 
to do five things.
    No. 1, we need a very big domestic marketplace that spurs 
investment and job creation and to be relevant on a global 
scale. Second, a scalable, competitive supply chain has to be 
put in place that delivers the lowest possible unit cost over a 
long period of time. Third, absolutely the best technologies 
because the best products win, time and time again. Fourth, 
strong intellectual property protections need to be put in 
place so that investors can generate a fair return on their 
investments. And fifth and finally, we need free and open 
markets. Given the global scale involved here, we need to be 
able to spread those costs over many geographies.
    Over the past 4 years, for example, the U.S. has become a 
world leader in the deployment of wind energy. The U.S. wind 
industry hits its high water mark in 2008 when over 8.5 
gigawatts of wind power were installed, enough to power roughly 
7 million homes. That capped a 3-year run during which the U.S. 
added over 16 gigawatts of wind power and now supports more 
than 85,000 jobs.
    Unfortunately, due to the economic crisis, the U.S. now is 
projected to install only half of what was installed in 2008. 
And we now find ourselves worried about the health of the 
renewables industry going forward.
    The good news is that Congress is considering a national 
renewable electricity standard which has the potential to 
reinvigorate the industry and keep jobs in the United States. 
The bad news is that both the House and Senate versions of the 
RES are too weak to keep the U.S. wind industry from collapsing 
over the next 3 years.
    The current targets for 2012 are equal to or below the 
status quo. It would not add a single wind turbine to the 
install base over the next 3 years. Our projections show that 
such RES would actually move the United States from No. 1 in 
2008 to No. 3 behind the EU and China in new wind 
installations.
    One way to address this challenge is through stronger near-
term requirements. GE believes that it would take approximately 
a 12 percent RES standard by 2012 to keep U.S. wind deployment 
up and continue to grow U.S. jobs.
    It is important, too, to understand that other countries 
are also on the move. China has doubled its wind power capacity 
in each of the last 4 years and is on track to pass the United 
States this year as the country with the largest number of wind 
installations. Europe also has strong targets, and over 70 
countries have national renewable energy policies.
    If the wind industry moves to China and Europe, small and 
medium-sized companies that supply key components for the U.S. 
industry will close factories and slash employment. In many 
quarters, orders have already begun to dry up, and this is a 
trend that no one in the United States wants to see continue.
    As the person responsible for GE's energy portfolio, I have 
seen firsthand that the jobs will go where the big markets will 
develop. And strong markets can develop from good policy. The 
U.S. is, indeed, at a crossroads. And you and your colleagues 
can make the difference between retaining a strong U.S. clean 
energy industry or losing it to foreign shores.
    I encourage you to address the need for strong national 
energy policy quickly so that the United States markets can 
continue to drive economic growth for the 21st century and the 
U.S. clean energy industries will have the scale, and the 
products, to enable the larger climate goals ahead.
    Thank you very much.
    [The prepared statement of Mr. Krenicki follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much, Mr. Krenicki.
    Our next speaker is Julian Wong, Senior Policy Analyst at 
the Center for American Progress Action Fund. Welcome, sir.

STATEMENT OF JULIAN L. WONG, SENIOR POLICY ANALYST, CENTER FOR 
                 AMERICAN PROGRESS ACTION FUND

    Mr. Wong. Chairman Boxer, Ranking Member Inhofe and members 
of the committee, thank you for this opportunity to testify.
    I am Julian Wong, Senior Policy Analyst for the Center for 
American Progress Action Fund. I will describe China's plans to 
build a low carbon economy, a strategy for economic growth, 
something I am pleased to do after spending most of last year 
in China as a Fulbright Scholar actively researching China's 
clean energy initiatives.
    In the U.S. debate over clean energy policies, China has 
been used as a scapegoat for domestic inaction. Yes, China 
remains heavily reliant on coal, and yes, it has surpassed the 
United States as the largest annual emitter of greenhouse gas 
emissions. But U.S. total cumulative emissions in the 
atmosphere are three times that of China, and the U.S. per 
capita annual emissions are still four to five times that of 
China.
    China was slow to acknowledge the threats posed by climate 
change. But once it did, it acted swiftly and decisively to 
reduce both emissions growth and to seize the economic 
opportunity to create a new period of prosperity out of 
reduction, deployment and sale of clean energy technologies.
    China's Vice Premier, Li Keqiang, repeatedly said that the 
development of new energy sources represents an opportunity to 
stimulate investment during this economic slowdown, to achieve 
stable export opportunities, all while building international 
economic competitiveness.
    So what has China done so far? Let me describe three 
aspects of China's green leap forward.
    First, energy efficiency is now a pillar of China's growth 
policy. China plans to reduce its energy intensity by 20 
percent from 2006 to 2010. There are now efficiency benchmarks 
for many industries including thermal power, steel and cement. 
This will reduce over 1 billion tons of carbon dioxide per 
year, starting at 2010, compared to business as usual, 
equivalent to taking over 200 million cars off the road.
    China's fuel economy standards are higher than the U.S. 
standard in 2016. As a result, China is now a leading innovator 
in various technological sectors including advanced efficient 
coal combustion and plug-in hybrid vehicles.
    Second, China has national targets for clean electricity 
production leading to the emergence of innovative technologies. 
It plans to produce 10 percent of its electricity from low 
carbon sources by 2010 and 15 percent by 2020. China's total 
wind energy capacity doubled in each of the past 4 years. This 
year, it will surpass the U.S. as the largest installer of new 
wind capacity.
    China is the world's largest supplier of solar panels, 
accounting for 40 percent of the world's market share. Of the 
top 10 solar companies by output, 3 are Chinese while just 1 is 
American.
    Third, China has new industrial zones dedicated to the 
manufacture of low carbon technologies. For instance, the city 
of Baoding, a hub for development, is an emerging leader. When 
I visited Baoding last December, I was amazed to see factory 
after factory of wind and solar component manufacturers. There 
are now over 150 wind and solar and other low carbon companies 
accounting for 12 percent of Baoding's GDP in 2007, and this 
percentage will be up to 40 percent by 2015. Baoding is not 
just an isolated example. Together with Tianjin and Jiangsu, 
these economic hubs are the future of China's low carbon 
economy.
    The United States won the race to the Moon. But we are 
losing the race for a sustainable Earth. As The Post said this 
morning said, we are not only behind China, but also Korea, and 
in some respects even India, which recently set the world's 
most ambitious solar energy target of 20 gigawatts by 2020.
    Opponents of clean energy policies often cite costs. This 
confuses cost with investment. When temperatures rise, when 
increased droughts and floods wreak havoc to our food systems 
and when our rivers run dry, these are the true costs of 
inaction. When we spend money fostering innovation in clean 
technologies, developing the talents of a work force, these are 
investments that will have returns many times over and truly 
enhance our economic competitiveness.
    The House Energy Bill provides a historic opportunity to 
turn the corner and regain global economic leadership. It sets 
clear electricity and efficiency standards that will spur new 
investments while saving consumers money. It proposes an 
independent clean energy deployment administration, or Green 
Bank, an idea that the Center for American Progress helped 
shape, to finance emerging clean energy technologies.
    The bill also provides funds to help U.S. manufacturers 
retool plants, retrain workers to produce the components of a 
clean energy economy. Jobs installing and operating new 
technologies will stay within the United States and cannot be 
outsourced. The bill puts a price on carbon pollution so that 
the energy investments are more attractive.
    To conclude, President Obama has said the Nation that leads 
the world in creating a new clean energy economy will be the 
Nation that leads the 21st century global economy. Americans 
look to the Senate to seize the clean energy economic 
opportunity and reestablish our leadership.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wong follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Boxer. Thank you so much.
    Our last speaker is Harry Alford, President of the National 
Black Chamber of Commerce. Welcome, sir.

STATEMENT OF HARRY C. ALFORD, PRESIDENT AND CEO, NATIONAL BLACK 
                      CHAMBER OF COMMERCE

    Mr. Alford. Thank you, Madam Chair.
    The National Black Chamber of Commerce was incorporated in 
May 1993 for the purpose of developing economic policy for 
African-American communities.
    We have been looking at energy policy since 1996. And in 
1999 we took a delegation to Brazil, where the country of 
Brazil gave us a very formal presentation on their energy 
policy. Envious, intimidated and quite impressed, we came back 
to the United States to help the United States develop an 
energy policy. So far, we have failed. We have no energy 
policy.
    I come to you, not as an economist, but with a deep 
understanding of small and minority-owned businesses and as 
someone who has experience with consumer behavior.
    Climate change is a vital issue that must be addressed. It 
will take time and cost real money to mitigate humanity's 
influence on climate. But any legislation must take into 
account the costs that will be shouldered by small and 
minority-owned businesses.
    Unfortunately, the current legislation from the House of 
Representatives will negatively impact the most vulnerable. It 
does not do what it is supposed to do. I learned a long time 
ago to beware of any document that has more authors than 
readers.
    The costs associated with the House bill are not readily 
understood. Let me quote from our study with Charles River 
Associates.
    Businesses and consumers will face higher energy and 
transportation costs that could lead to increased costs of 
other goods and services throughout the economy.
    Household disposable income and household consumption would 
fall. Purchasing power would decline by $730 in 2015 and $940 
in 2050, adjusted against 2010 base income levels.
    Wages and returns on investments would fall, lowering 
productivity growth and reducing employment opportunities. 
Wages would be $170 a year less by 2015, $390 a year less by 
2030, and $960 less by 2050.
    Green jobs, whatever they are, gained would be swamped by 
jobs lost in old industries and businesses, leading to a net 
loss of 2.5 million jobs.
    These impacts would adversely affect some groups more than 
others. They will also put our businesses at a competitive 
disadvantage, vis-a-vis the Chinas and the Indias of the world 
who will open factories and businesses that we cannot afford to 
build here.
    And what about the emissions permits that we would give 
away? Are we really contemplating handing the reins of our 
economy over to Wall Street emission traders who will deal in 
politically generated emissions permits and foreign offsets?
    The bottom line is this: any climate legislation that fails 
to meaningfully reduce the human impact on the climate or does 
so in an economically unsustainable manner cannot be effective. 
While consumers may not have much choice but to pay the higher 
costs that will be passed on to them if the current legislation 
becomes law, the actions they would take to deal with those 
costs would affect us all.
    I urge the Senate to take a different path, one that 
marries our need to address climate change with our economic 
realities. I am not an expert, but I have to believe that there 
are better options than the one currently on the table.
    We not only need to get the politics right when it comes to 
climate change, we need to get the economics right. If we do 
not, we will not truly get to where we want to be on the 
climate front, the economic front or any other front.
    We, the United States, the No. 1 power among nations, are 
threatened because we cannot get ourselves together to 
formulate a viable energy policy. And there are examples out 
there from other countries.
    Madam Chair, I am through.
    [The prepared statement of Mr. Alford follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boxer. Thank you. We are going to start 7-minute 
rounds.
    I just want to say, Mr. Alford, I want to share with you 
the Pew Charitable Trust study from California which shows that 
in this terrible economy, the only, as Senator Merkley has said 
about Oregon, the only area of growth in jobs, the only one, 
has been clean energy. And Mr. Doerr knows this because he has 
been following a very tough time right now in our State, tough, 
tough, tough. And the only bright light for job creation has 
been that.
    Also, what I want to encourage you to do, I understand that 
the Black Chamber of Commerce hired Charles River Associates to 
do their study. I would love you to see who did hire them to do 
the study.
    Mr. Alford. We teamed with Charles River Associates.
    Senator Boxer. OK, then you and Charles River Associates 
did the study. I would like to suggest that you look at the 
other studies, and we will make them available, because you are 
clearly an outlier on that. You know, we actually have not had 
anyone that we know challenge the fact that in the Waxman-
Markey bill, the poorest households actually come away with a 
surplus of $40 because of the rebates in the bill.
    So, we will share all of that with you in the hopes of 
opening up your mind to what we see, many of us here, not the 
minority side but the majority side, see as a major 
opportunity.
    The other thing I want to share with everyone here is one 
of the great things that we have on our side is that we heard 
these same arguments when we wrote the Clean Air Act Amendments 
in 1990, and we set up, in America, the first cap-and-trade 
system to combat acid rain.
    Let me tell you what the Chamber of Commerce said back 
then. Industry has estimated that the total cost, and they made 
this prediction as you are here, the total cost of the new 
Clean Air Act as high as $91 billion annually by the year 2005. 
The last cost estimate that we did on the bill, we are talking 
about the Clean Air Act Amendments, was around $50 billion a 
year once the major controls kick in. That was a statement by 
Mary Bernhard of the U.S. Chamber of Commerce.
    In reality, because we have had all of these years to look 
at it, here is what happened. Actual costs were only 4 percent 
of original industry estimates, one-quarter of what the 
Government estimated. The benefits of the program exceeded the 
costs 40 to 1, resulting in more than $70 billion in human 
health benefits.
    Now, I have been around for a while, and I started in local 
government way back before, just as the environmental movement 
started. And every argument was always about when you go after 
pollution, you are going to hurt the economy. At the end of the 
day, many, many jobs have been created and actually, if you 
look at the ratio, whenever we pass a well thought out piece of 
legislation, a landmark piece of legislation if you will, we 
see jobs grow.
    The basic fact is, if you cannot breathe, you cannot work. 
The fact is, when you talk about global warming and you look at 
even George Bush's administration's predictions of high tides 
and more hurricanes and all the rest, it is really hard to get 
to work in a hurricane.
    We need to stop the ravages of global warming, and as we do 
that, create the kinds of jobs about which Mr. Doerr, Mr. 
Krenicki and Mr. Wong have so ably testified.
    I will say that the Congressional Record is littered with 
gloomers and doomers. And we have got some great ones here. 
Gloomers and doomers. And if you go back to their predecessors, 
you will see the same exact thing, every time we have passed a 
landmark law.
    And as we get deeper into this debate, I will be putting 
all of those in the record because the beauty of it is many 
years have passed. So, we can see who was wrong and who was 
right, the gloomers and doomers or the optimists that said when 
we do this, we will create jobs.
    Now, I would like to ask Mr. Doerr this question. If we 
say, do not do anything because China is not doing exactly what 
we are doing, it seems to me we hurt ourselves. It seems to me 
that we are essentially saying that China should lead the 
world. It really bothers me to think that people would sit and 
here and say China should lead the world.
    Do you agree that, if we do not do anything, the winner 
will be countries like China and the losers will be countries 
like America who sit back and say, we will just wait and see 
what they do? Could you comment on that?
    Mr. Doerr. Absolutely, Senator. Thank you. I would like to 
comment with two points.
    I want to go from China to Denmark for a moment, because 
before the rest of the world did anything, Denmark put in place 
standards, as well as policies, caps and incentives around 
carbon. They started that in 1970, and it has made a huge 
difference. Today, one-third of all terrestrial wind turbines 
in the world come from Denmark.
    Denmark's energy technology exports last year were $10 
billion. They are No. 1 in wind. And that is from a country 
that is smaller than Missouri or Tennessee or Michigan. It has 
resulted in jobs. Unemployment in Denmark was 2 percent last 
year. And they moved before anyone in the rest of the world 
moved.
    Now my second point goes directly to China. I believe that 
you can, we can, carefully design these policies to bring in 
other nations. And we can look at Copenhagen as an opportunity 
to create really worldwide markets with worldwide momentum for 
a low carbon future, in exactly the same way that the Internet 
created worldwide markets and worldwide momentum for 
information technology.
    I have heard, and some people say, that we should not move 
ahead unless China moves. Well, I want you to know that China 
is moving full speed ahead right now, with or without us.
    Senator Boxer. Any comments from the rest of the panel on 
that question about China? Mr. Krenicki.
    Mr. Krenicki. The only thing I would add is that as we look 
at the market for power generation equipment for the next 3 
years, India will be twice as large as the United States, and 
China will be 5 to 6 times as large. So, given a scale 
business, we need to act very quickly and decisively just 
because they have such greater growth going forward is another 
dynamic we have to phase into.
    Senator Boxer. Yes, Mr. Alford, and then Mr. Wong.
    Mr. Alford. I do not believe that there is any argument 
that we should be doing more and we should be aggressive in 
pursuing answers. I certainly think we should compete with 
China and India and other countries. I think that is what we 
are saying. But we need to do it intelligently and need to do 
it without hurting ourselves.
    I am still trying to find out what a green job is, and I 
have asked the green job gurus from various sources to draw me 
pictures as to what a green job is. I have yet to understand 
it. It reminds me of the dot-com bubble. You know, everything 
is going to be seamless, and it is all virtual. There are no 
green jobs. And, for us to say, leave Detroit, go to Montana 
and get a wrench and work on a windmill, and that is going to 
be a green job, it is not going to happen.
    Senator Boxer. Well, sir, I would invite you to come to my 
home State. And I am sincere about this.
    Mr. Alford. I am a native Californian, madam.
    Senator Boxer. Well, then, let us go.
    Mr. Alford. I go all the time.
    Senator Boxer. Let us go to the Apollo Alliance. Come with 
me. I spent a whole week looking at young people getting 
trained. The last one was on Richmond, California, and we saw 
the training to put the solar rooftops on, to do the 
insulating, all of the energy efficiency.
    I am stunned that you would say what you say coming from my 
home State, given the fact that the small business, and this is 
important, the California Small Business Association says 
California small businesses' competitive edge over their 
counterparts is because while they are wasting money on 
inefficiency, we are spending it on employees building a better 
product because they are making their offices efficient.
    I also would be kind of shocked that you would dismiss the 
computer revolution as you did.
    But the last word on this, Mr. Wong.
    Mr. Wong. Yes, thank you.
    Well, just to follow up on Mr. Doerr's point. Yes, China is 
exactly moving ahead, whether we like it or not and whether we 
move ourselves. I think it is really important to separate the 
rhetoric and politicized nature of the international climate 
process from what is actually happening on the ground in China. 
They are two very different things, and you cannot mix the two.
    What I described earlier in my testimony about what is 
happening in China is happening today. These are not pie in the 
sky goals or statements. These are real wind farms and real 
solar farms that are being deployed and manufactured today.
    To Mr. Alford's point, I would like to refer you to a 
report that the University of Massachusetts did in conjunction 
with the Center for American Progress that looked at a State by 
State level, and also a clean energy sector by sector and 
almost component by component level, about where these green 
jobs are being created.
    The conclusion of the report is that 1.7 million new net 
jobs, that is net, will be created with appropriate and proper 
investments in the clean energy sector.
    Mr. Alford. May I respond to that since my name was called, 
Madam Chairman?
    Senator Boxer. Well----
    Senator Inhofe. I will give you a chance.
    Senator Boxer. Senator Inhofe will give you a chance to 
respond. Since I have gone over time, I am going to give you an 
extra couple of minutes.
    Senator Inhofe. Three minutes, yes.
    Senator Boxer. Three minutes minus several seconds because 
I did not go all the way.
    Senator Inhofe. Minus 3 seconds, that is right.
    Well, there is just too much to respond to here, and I 
think everyone kind of feels the same thing. Let me just 
mention a couple of things.
    Where is that statement from the, yes, I will just read 
this here. A recent study by economists from California State 
University found that small businesses would be destroyed by 
California's global warming regulation. Now, they are talking 
about what they have already adopted there in California.
    The professor found that the State would face an annual 
loss of $183 billion in gross output from the small business 
sector, or a 10 percent drop in total State output. And it goes 
on and on. I wanted to get that statement into the record 
because I think that is significant.
    The next thing that I would like to get in, there is all 
this talk about the wonderful things that China is going to do, 
out of the goodness of their heart, and that sounds good. But 
let us keep in mind that, if they are doing anything now, as 
you claim they are, both Mr. Wong and Mr. Doerr, they are doing 
it without caps, without a cap-and-trade.
    Now, I would like to read, because it needs to be in the 
record at this point since we are talking about China, their 
statement of position in the post-Kyoto Treaty that will be 
discussed in Copenhagen, and that is that the right to develop 
is a basic human right, and it is undeprivable. Economic and 
social development and poverty eradication are the first and 
overriding priorities of developing countries. That does not 
surprise us. The right of developing countries shall be 
adequately and effectively respected and ensured in the process 
of global common efforts.
    They go on to say, and I do not know how else you can 
interpret it, that the Chinese and other developing countries 
collectively argue that the price for reducing their emissions, 
in other words, what they demand to get for this, is 1 percent 
of the GDP of the United States and of all developed countries. 
Now, I have done a calculation, and we are talking about 
something in excess of $200 billion a year. And I do not think 
that is really sellable to the American people.
    Let me do this. I do not want to be discourteous, let me 
just compliment you. I would say to Mr. Krenicki, I was 25 
years in the corporate world. I know how it works. I have 
served on boards of directors.
    If I served on the Board of Directors of GE, instead of 
being in the U.S. Senate, I would be here today testifying as 
you are testifying, because you guys are going to make a 
fortune off this thing, if it comes. You have been in on the 
negotiations, and it is very clear. And that is not just me 
saying it. I just want to get into the record, Madam Chairman, 
that the CEO of GE stated in his shareholders meeting that the 
current events present an opportunity of a lifetime because 
capitalism will be reset.
    It goes on to say, well, here is another one. This is Mr. 
Steve Sargent. He was head of your operations in Australia and 
New Zealand. He says that for us, we look at this, climate 
change, as the biggest business opportunity of the century for 
your company.
    Now, I know the response would be, and I will let you 
respond for the record because we are under time constraints 
here, but you stand to make a lot of money, and if I were on 
your Board of Directors, I would be encouraging you to do 
exactly what you are doing today.
    I want to turn to Mr. Alford because I appreciate your 
being here. You have been once before, and I wonder sometimes, 
I expected you to have in your written statement a little more 
attention to the regressive nature of the tax that we are 
talking about passing here, in terms of a percentage of 
expendable income, I would have to say, looking after the Black 
Chamber of Commerce, lower income level in many cases, is it 
not true that a larger percentage of expandable income would 
come from the poor people with this kind, any kind, of an 
energy tax?
    Mr. Alford. Without a doubt. Sixty percent of black 
households earn less than $50,000 a year----
    Senator Inhofe. They have to heat their homes, use the fuel 
to get to their jobs----
    Mr. Alford. We are not talking about spending too much 
energy or being wasteful. We are talking about keeping your 
kids warm, or cooking dinner, or getting to work. Going back to 
these jobs, I have got 18 chapters in California, and I want 
them to go and find these green jobs. I want these green jobs 
in their face. I want them to see these green jobs, including 
Richmond and Oakland and San Francisco and others. I want to go 
out there personally and see these green jobs. I have been 
looking. I have not seen them yet.
    Senator Inhofe. I assume that you agree with the statement 
of the professor from California State University that 
questions the jobs and the net loss that they are already 
experiencing from just what California has done on its own.
    Mr. Alford. The last time I checked, Senator, California is 
an economic basket case, and these green jobs are not going to 
solve it.
    As we do know today, we need to find a green solution, 
true. We need an energy policy. And this law, as it is written, 
is not a policy, it cannot compete with Brazil and other 
countries, it overlooks, or underlooks, nuclear energy and 
other phases.
    We need to look at this thing intelligently. I do not think 
we need to argue. But I think if we go down this path, it is 
going to be bad. And African-Americans are going to pay, and 
Hispanics, are going to pay a disproportionate share.
    Senator Inhofe. Well, I would say that just looking at 
energy policy that, I think I could speak for myself and 
everyone to my right at this podium, we have an energy 
proposal, a policy, and it is called all of the above. We want 
green jobs. We want wind. We want geothermal. We want solar 
energy. But we also want oil and gas. We have all of these 
opportunities right now. We could become energy sufficient in a 
matter of 1 year if were to open up the opportunities and 
exploit our own resources in this country.
    We need clean coal technology. We cannot do it without 
coal. Right now, we are 50 percent dependent on coal. And we 
are working on clean coal technology. We have got to have, of 
course you are going to hear a lot about this, you have to have 
the nuclear aspect of this thing.
    But before my time runs out, I want to get into one other 
thing. We had a quite a week last week because we had the EPA 
Administrator. I just applaud her for her honesty in response 
to the question that I asked. And that question was, if we were 
to pass the bill that was passed in the House, the Waxman-
Markey bill, would that have a net reduction in CO<INF>2</INF> 
emissions? She thought, and she said, no, it would not.
    Now, I have seen studies that show that it would have the 
opposite effect. You drive our manufacturing jobs overseas, 
they are going to go where they do not have the emissions 
standards that we have in this country, and the regulations, 
and those other things.
    So, I think last Tuesday, the EPA Administrator confirmed 
that the cap-and-trade tax bill, whether it is Waxman-Markey or 
Warner-Lieberman or McCain-Lieberman or any of the rest of 
them, or any of the new iterations of that, is no longer about 
solving global warming.
    The following day, the G8 announced, and I read some of the 
reports there, they vehemently deny any interest, and I am 
talking about developing countries, in doing this. If they do 
not do it, we are going to have a net increase.
    So, I guess this is now a jobs bill and that is what this 
is all about now. And I would like you, because I read your 
study that you had, is there anything that you did not have 
time to talk about in terms of this study and how it affects 
the jobs?
    Mr. Alford. It is going to affect the jobs immensely. I 
think we are being very conservative when we say a 2.5 million 
net loss. We are going to come out with some other studies that 
are going to zero in on the city of Chicago, or the State of 
Michigan, to be more specific, and also to hit home on African-
American communities.
    But I think, getting back to the loss, if Brazil does not 
import a drop of oil in the next 15 years, they are going to be 
OK. They have got the reserves because they have got a 
strategy. Petrobras has a strategy for that. We do not have a 
strategy. If the sheiks wake up tomorrow morning mad at us, we 
are in trouble.
    Senator Inhofe. Or Chavez. But at least you are aware that 
there is a strategy that we have been trying desperately, I 
know a day does not go by that one of us is not down on the 
floor saying what I just said a minute ago about how we can be 
energy independent.
    Last, since I am running out of time, and I assume that you 
have a Board of Directors that meets and talks about these 
issues----
    Mr. Alford. Yes, sir.
    Senator Inhofe. I want you to take back a question to that 
Board of Directors and then, for the record, send me back the 
answer. That would be, and I think you are aware that, in order 
to reduce costs to our manufacturing sector from the provisions 
of this so-called jobs bill, and other sectors, the bill 
authorizes, now listen to this, Mr. Alford, the bill authorizes 
an international offsets program that allows our industries 
covered under the cap, including the manufacturing and refinery 
and other energy intensive industries, to indirectly pay for 
offset projects that originate in China, India or Malaysia.
    The question I want you to take back is, do you think that 
helps to create more American jobs or Chinese jobs?
    Mr. Alford. We have a board meeting next Wednesday at 4 
p.m. I see some of our board members saying, I see some of our 
board members doing, taking their business to China and 
Singapore and places for opportunities and leaving the United 
States. No, I think it is going to have net loss and ill effect 
on the United States.
    We talk about China, Brazil and India. These are countries 
that we have not built out yet. But there is another 20 or 25 
percent of this world that does not even have access to energy, 
and when they decide to have roads and running water and 
electricity, that is another impact that is going to be a 
strain on this world. And we need to take all that into effect.
    Senator Inhofe. One last thing, Mr. Alford. I will not be 
able to respond to it because it has not been said yet, but I 
suspect that when it is someone else's turn to ask questions, 
they are going to comment on the NAACP. I have a copy of the 
resolution that was passed and nowhere in that resolution do 
they endorse in any way any type of a cap-and-trade bill. And I 
think you are aware of that. So, anticipate that question will 
come up. I hope that you will have an answer ready.
    Mr. Alford. Yes, sir.
    Senator Boxer. Since Senator went over 1 minute and 20 
seconds, I will add that to my time.
    Senator Inhofe. One minute 13 seconds.
    Senator Boxer. So, here is the thing. I am going to place 
in the record of a couple of important documents. Mr. Alford, 
we have your address as Washington, DC----
    Mr. Alford. That is correct, madam.
    Senator Boxer. You live in Washington, DC, or California?
    Mr. Alford. Personally? I live in Bethesda, Maryland.
    Senator Boxer. OK, because you said you were from 
California.
    Mr. Alford. I am a native Californian, born and raised.
    Senator Boxer. Yes, but right now----
    Mr. Alford. I was there when you came.
    Senator Boxer. You do not know when I came.
    Mr. Alford. It was 1962.
    Senator Boxer. Actually, you are right on target.
    [Laughter.]
    Mr. Alford. It is all in the manual, Madam.
    Senator Boxer. Actually, it was 1965.
    Here is what I want to tell you. You do not live there 
now----
    Mr. Alford. I am a property owner and I pay taxes in 
California.
    Senator Boxer. Sir, let me talk to you.
    Mr. Alford. Yes, madam.
    Senator Boxer. This is friendly.
    [Laughter.]
    Senator Boxer. I want us to go back there together. I want 
you to come with me and John, and let us go see those jobs that 
you say do not exist. So, we are going to----
    Mr. Alford. Yes, madam.
    Senator Boxer. Good. Put in the record the Pew Charitable 
Trust report which says, and I am reading one sentence, jobs in 
the clean energy economy grew at a faster rate than total jobs 
in the Golden State between 1998 and 2007. And it talks about 
all of that, and being driven by venture capital and the laws 
on the books. So, we are going to put that in the record.
    Then we are going to put the NAACP resolution that passed, 
saying this: the NAACP approved a historic resolution 
addressing climate change legislation for the first time in the 
organization's history.
    Mr. Alford. What does that mean?
    Senator Boxer. Sir, we are going to put that in the record, 
and you can read it because I do not have the time but I will--
--
    Mr. Alford. But what does that mean though? I mean, NAACP 
has a resolution. What does that mean?
    Senator Boxer. Sir, they could say the same thing about 
what do you mean? I am just telling you----
    Mr. Alford. I have got documentation.
    Senator Boxer. Sir, they passed it. Now, also, if that is 
not interesting to you, we will quote John Grant who is the CEO 
of 100 Black Men of Atlanta. ``Clean energy is the key that 
will unlock millions of jobs and the NAACP support is vital to 
ensuring that those jobs help to rebuild urban areas.'' So, 
clearly, there is a diversity----
    Mr. Alford. Madam Chair, that is condescending to me. I am 
the National Black Chamber of Commerce, and you are trying to 
put up some other black group to pit against me.
    Senator Boxer. If this gentleman were here, he would be 
proud that he was being quoted, just----
    Mr. Alford. Then he should have been invited.
    Senator Boxer. He would be proud just----
    Mr. Alford. It is condescending to me.
    Senator Boxer. Just so you know, he would be proud that you 
are here. He is proud, I am sure, that I am quoting him----
    Mr. Alford. Proud. Proud. All that is condescending, and I 
do not like it----
    Senator Boxer. Well, sir----
    Mr. Alford. It is racial. I do not like it.
    Senator Boxer. Excuse me, sir.
    Mr. Alford. I take offense to it.
    Senator Boxer. OK.
    Mr. Alford. As an African-American, and a veteran of this 
country, I take offense to that.
    Senator Boxer. Offense at the fact that I would quote----
    Mr. Alford. You are quoting some other black man. Why do 
you not quote some other Caucasian or some other----
    Senator Boxer. No, well let me----
    Mr. Alford. You are being racial here.
    Senator Boxer. Let me be clear----
    Mr. Alford. And I think you are getting on a path here that 
is going to explode in the Post.
    Senator Boxer. I am going to respond right now. I am going 
to ask everyone to listen to what I said.
    First, I placed in the record the Pew Charitable Trust 
study, a very important study for our State, our home State of 
California. Then I wanted to make a point that the fact is, 
there is definitely differing opinions in the black community, 
just as there are in my community.
    Mr. Alford. You are speaking on behalf of the black 
community?
    Senator Boxer. No, I am putting in the record a statement 
by the NAACP.
    Mr. Alford. Why?
    Senator Boxer. Because I think it is quite relevant. I 
think----
    Mr. Alford. I understand the Pew study. But why are you 
doing the NAACP? Why are you doing the Colored People 
Association's study with the Black Chamber of Commerce?
    Senator Boxer. I am trying to show the diversity of 
support----
    Mr. Alford. Diversity?
    Senator Boxer. And I will go ahead and do one more 
diversity of support. The oil companies. The oil companies. I 
think they are an important part of this conversation. The oil 
companies are the ones who funded the very first CRA report 
that you support. I think it is important to note----
    Mr. Alford. I have no idea of it.
    Senator Boxer. I am putting it in the record, sir. Exxon 
Mobile gave hundreds of thousands of dollars for that report. 
So, I think it is important, when we have a debate here, that 
we look at the diversity of opinion and who agrees and 
disagrees----
    Senator Inhofe. Madam Chairman, I have something to put in 
the record.
    Senator Boxer. And that is what I have decided to do.
    Senator Inhofe. I have something to put in the record.
    Senator Boxer. Yes.
    Senator Inhofe. I think if you are going to enter the NAACP 
paper in the record, I want to enter the actual resolution----
    Senator Boxer. Absolutely.
    Senator Inhofe. Because it does not endorse this. And I 
would also say that CRA is well-respected, it represents a 
broad group of, whoever goes to them and wants a study, they do 
it.
    Mr. Alford. Senator, as I said, we have been looking at 
energy policy since 1996. We are referring to the experts, 
regardless of their color. And for someone to tell me, an 
African-American, college-educated veteran of the United States 
Army, that I must contend with some other black group and put 
aside everything else in here, this has nothing to do with the 
NAACP and really has nothing to do with the National Black 
Chamber of Commerce. We are talking energy. And that, that road 
the Chair went down, I think it is God awful.
    Senator Boxer. OK, let me say, as someone who is married to 
a veteran, that has nothing to do with this conversation. I 
just want to say to you, sir, and all of my panelists, how much 
I respect your views. I will put a number of other documents 
into the record from many other organizations because right now 
the whole point is to build support. I am trying to build 
support. Your organization opposes. I am showing you 
organizations that support. And I will continue to do this. And 
they are diverse. They represent America, just as the 
opposition does. And that is what I will continue to do.
    Now we will move forward, and we will hear from Senator 
Carper.
    [The referenced documents follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Carper. Thank you very much.
    I have a question. I want to ask Mr. Doerr and Mr. Krenicki 
to talk to us a little about the green jobs that you are 
creating, and seeing created.
    But before I call on you to do that, let me just note that, 
on the issue of whether or not global warming legislation, cap-
and-trade legislation, cap-and-trade regime, would somehow 
disproportionately impact minority families, or low income 
families for that manner, I believe that in the legislation 
that the House has sent, it is not a perfect bill, I am not 
here to say it is a perfect bill, and there are ways that we 
can improve it, and hopefully we will get some good ideas from 
the four of you today as we will from others, but I believe 
they have tried to address the concerns that low income 
families would bear a disproportionate burden here.
    I believe that they have crafted the legislation so that 
the lowest 20 percent income families would basically get a 
pass in terms of any increase in their energy costs because of 
this legislation. For those who are not covered, who are not 
among the lowest quintile, the lowest 20 percent, I am told the 
CBO, which is not a Democrat, not a Republican, but is non-
partisan, in looking at the legislation, they have estimated 
that the impact on the average American family for the 
legislation on the utility bills would be about $170 a year. 
That is about, it works out to about, $1 or $1.20 per day. It 
may be not even that much, it may be half that much.
    Congressman Rick Boucher, who comes from the coal part of 
Virginia, told us earlier this week it is about the cost of a 
postage stamp for most families. That is not a huge burden, 
even on folks who might be in the lowest 20 percent, but 
certainly not for those of use who might be more fortunate.
    Let me just hear from our first two witnesses. Talk to us a 
little bit about some of the green jobs that you have been 
involved in creating, and others. I was with the DuPont Company 
about a week ago. They are working on a very thin film that 
will be used on their solar operations, a permeable film that 
is about one-three-thousandths the thickness of a hair.
    Part of what they hope to be able to do with that is to 
enable us to create power generation capabilities, solar power 
generation capabilities, for our soldiers. Instead of carrying 
around these battery packs that weigh 30 or 40 pounds, they 
will carry around something that weighs a couple of pounds.
    We are going to be building a DuPont windmill farm off the 
coast of Delaware, the first in the Nation, about 3 years from 
now, providing about 20 percent of our energy needs in the 
DelMarVa Peninsula. We hope to actually build a steel mill in 
Northern Delaware that will actually build the windmills, the 
foundations for the windmills, and provide a lot of jobs for 
that.
    The DuPont Company out in Tennessee, they started working 
with the energy research grant for DuPont with energy several 
years ago on the idea of how do we use biofuels, how do we use 
corncobs, cornstalks, and so forth, to actually create a more 
energy efficient biofuel, and that, we think if it will take 
off, it will be a big deal for not just for DuPont but for our 
country.
    So, those are just a couple of the ideas that I have seen 
in the last week in my own little State. Let me ask Mr. Doerr 
and Mr. Krenicki for some of your examples.
    Mr. Doerr. Thank you, Senator. I will take your question in 
three parts: jobs, costs and then innovations.
    On the job costs, Ranking Member Inhofe, in California, the 
global warming bill has not yet been started. We have not 
pressed the start button. The surveys I saw, I was involved in 
working on this legislation, showed that it would generate 
84,000 net new jobs in California and almost $100 billion a 
year in additional income. And of course we have not seen it 
yet because we have not pushed the start button on that 
important legislation.
    I said besides jobs, I would speak to costs. Senator 
Carper, you are exactly right. And by the way, I have read all 
of these cost studies. We could get into dueling modeling wars 
until the sun sets, but I want to say very clearly about the 
CBO study of Waxman-Markey, which is respected, that for the 
lowest income quintile----
    Senator Inhofe. Madam Chairman, since our witness mentioned 
my name, I want to at least respond.
    Senator Carper. Wait, wait, wait, wait, wait. I was very 
patient, listening to others talk. I want to have him respond 
to my questions. I am a very patient guy but, damn it, I want 
to be given the respect that I gave you.
    Senator Inhofe. You are implying that the study, it was a 
study that was made by California State University, not 
studying what is already happening.
    Senator Boxer. Let me talk.
    Senator Inhofe. I will submit this for the record.
    Senator Boxer. I am going to add just 60 seconds, Senator 
Carper, because you could lose your train of thought by being 
interrupted.
    Senator Carper. Sure.
    Senator Boxer. Interruption is not appropriate, regardless 
of who is interrupting whom. So, Senator Carper, please 
continue.
    Senator Carper. Thank you very much. I ask our witness to 
proceed.
    Mr. Doerr. Senator Carper, to your point, the CBO study 
showed that, in fact, there would be a net benefit of $40 per 
year per household by 2020 of the Waxman-Markey legislation.
    What I want to say about all of these modeling studies, to 
everyone here in the room, and I read them all, is none of 
them, not any of them, factor in any kind of innovation. They 
assume that Americans do not invent, or that costs get lower as 
we saw with the sulfuric rain emissions legislation.
    So, I see entrepreneurs today working on technologies that 
will lower the costs by 90 percent of separating the 
CO<INF>2</INF> from coal to make carbon capture and 
sequestration economic. I see entrepreneurs today working on 
these third generation solar films, so that we can have solar 
across the country, not just in sunny Nevada, that is 
equivalent to the grid prices.
    I have seen entrepreneurs who are working to take 
CO<INF>2</INF> and instead of burying it under the ground, 
turning it into valuable products, building products like 
asphalt for roads. All of this innovation is possible. But it 
is not enough, and we do not have strong domestic markets, to 
encourage its development without this legislation.
    So, whether it is on the point of view of the costs and its 
effect on the lowest incomes in our country, from the point of 
view of the jobs, or the possibility of innovation, we need to 
put a price on carbon and a cap on carbon emissions or, as Mr. 
Krenicki said, we will not develop the large domestic markets 
that will give us a chance to lead.
    Thank you.
    Senator Carper. Thank you.
    Mr. Krenicki.
    Mr. Krenicki. Senator, GE Energy employs approximately 
65,000 employees. Seventy percent of our revenues come from 
outside of the United States. So, we are an export-oriented 
American business. I will give you just a couple of quick 
examples.
    Greenville, South Carolina, is one of our large 
manufacturing sites. We make heavy duty gas turbines. But it is 
also our second largest wind turbine site. We entered the wind 
turbine business 7 years ago. We brought Enron's wind turbine 
business out of bankruptcy. Today, we are vying for No. 1 
worldwide in wind and have created several thousand direct jobs 
on the GE payroll as well as indirect jobs based on our 
purchases of raw materials in the United States, including 
things like transportation. Our transportation bill alone in 
wind turbines is over $700 million a year. So, you can see what 
we feed into the economy building up that business.
    But it is not just wind. In Greenville, South Carolina, we 
are manufacturing heavy duty gas turbines that will supply the 
largest combined water and power plant in the world in Saudi 
Arabia, 10 percent of the electricity and 20 percent of the 
water for the kingdom of Saudi Arabia.
    We are also building, with our customer Duke Energy and 
Bechtel, the world's largest coal gasification plant in 
Indiana, which is employing many thousands of construction jobs 
on sites. So, there are many ways to turn some of these older 
sites and give them new purposes going forward.
    In Schenectady, New York, where we started GE, Thomas 
Edison started GE over 100 years ago, we are building and will 
be dedicating the largest wind technology center in the world, 
which will employ 500 engineers this year.
    So, we are creating new jobs, and a lot of it is driven 
based on activity outside of the United States, and we would 
like to make sure that we are participating in the U.S. market 
as well.
    Senator Carper. A number of us on this panel, certainly my 
colleague Lamar Alexander and I, are strong advocates of 
nuclear energy. We have about 104 power plants that currently 
create nuclear energy. We have got 17 applications to build 26 
new nuclear power plants. I understand GE is still in the 
nuclear business. As far as I am concerned, that is an area 
that we want to continue to develop. Do you want to comment on 
that for us, please?
    Mr. Krenicki. I totally agree with Senator Alexander that 
nuclear has to be part of the mix in the United States. It also 
requires very strong clear policy. The 2005 Energy Policy Act 
was 4 years ago, and we still are not moving forward 
aggressively on nuclear. It needs more support, more certainty.
    It also is critical that we are competing on a global 
scale. We are chasing projects in the Middle East today, where 
we compete against sovereign companies. We need strong signals 
from an energy security standpoint, from technology, climate 
change, but also to be active in the proliferation discussions 
going forward. We need a healthy, vibrant civilian nuclear 
industry. So, I agree with Senator Alexander that nuclear has 
to be a big part of the solution as well.
    Senator Carper. So, what I think I hear you saying is that 
if we are interested in meeting our energy needs, nuclear has 
got to be part of it, wind has to be part of it, solar has to 
be part of this, clean coal has to be part of this, and 
conservation.
    No one has really talked about conservation. We just bought 
a new refrigerator. I have told my colleagues about it. It 
reminds me of our new air conditioner that we bought about a 
year ago. It cuts our electricity almost in half by virtue of 
both of those.
    One of my friends likes to say that the cleanest, most 
affordable form of energy is the energy that we never use. And 
I do not want us to forget about conservation. Mr. Wong, you 
were trying to say something. I have about 50 seconds. Please.
    Mr. Wong. Just a comment on nuclear energy. You know, this 
cap-and-trade aspect of the energy bill that we are 
considering, it does not pick technology winners. In fact, if 
it is true that nuclear is going to be the solution, or part of 
the solution, and science bears this out and the costs bear it 
out, then putting a price on carbon is going to benefit 
nuclear. It is going to be good for nuclear.
    That being said, I think it is important to be cautious 
about nuclear for two reasons: costs and water. Studies have 
shown that the costs of nuclear, of just putting up one plant, 
is going to be anywhere between $8 billion and $10 billion. So, 
to build 100 nuclear plants, that is going to cost $1 trillion.
    Senator Carper. Mr. Wong, my time has expired. Let me just 
say thank you.
    Thank you for the extra minute, Madam Chair. This has been 
a good exchange.
    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Senator Carper earlier asked why he was the only one 
quoting Einstein. Well, my crack staff got me this quote from 
Einstein: When one considers the difficulty of predicting the 
outcome of a complex system, one need only think of the 
weather, in which case the prediction, even for a few days 
ahead, is impossible. So, as we are here discussing and 
debating these kinds of issues, I will kind of get back to 
Einstein.
    Mr. Alford, I appreciate your being here today. In your 
written testimony, you talked about green jobs gain would be 
swamped by jobs lost in old industries and businesses, leading 
to a net loss, I think you said, of 2.3 million to 2.7 million 
jobs. You went on to say that the impact would differ across 
regions, across industries and across income levels.
    I wonder if you would just take a little bit of time to 
elaborate further on what regions of the country you think 
might lose some of these jobs, where that would be the 
greatest, and if you think small businesses would be 
disproportionately affected.
    Mr. Alford. Yes, I think it was Senator Bond who had a map, 
a chart, up there that identified various States. If you look 
at the geography, the demographics of black population of the 
United States, the worst hit areas happen to be these areas, 
such as Illinois, Michigan and Ohio. Then you look at the 
renewable energy standards. Yes, that map there. Those darker 
colors are probably the most populated, the biggest black 
populations in the United States. You have Texas, Illinois, 
Indiana, Michigan, Ohio and such. Those are going to be 
affected.
    Is there going to be a mass migration? Is this going to be 
the Grapes of Wrath where you leave Detroit and Cleveland and 
head out to Idaho where the green jobs are and start over 
again? I do not think so. What is going to happen to those 
families? What is going to happen to those children, what is 
going to happen to their futures?
    I think we need to look at this, take a hard look, and come 
up with a strategy. As we do make a better world, a cleaner 
world, I think we also should make a world that has opportunity 
for all of us.
    Senator Barrasso. In looking through the report by your 
Chamber, one of the quotes was, the judgment about what action 
to take cannot be made simply on the grounds that a cap-and-
trade program will create additional jobs and stimulate 
economic growth. It will not, you say, but on whether the 
benefits are worth the cost.
    That is where I spend a lot of time, on the benefits as 
well as the costs. Are the benefits of this bill worth the cost 
to you and also to the small business community and the 
American economy?
    Mr. Alford. What are the benefits? The U.S. would produce 
less carbon than we are today, but what is the benefit 
worldwide? What does that do to Los Angeles County Basin, where 
I used to play football and used to have to cough during a 
football game immensely because of the smut coming across the 
Pacific Ocean, not because of what Los Angeles was doing, but 
because of what was coming from elsewhere, from the other parts 
of the world?
    So, what is the benefit? If China, and frankly, if I were 
China, if I were India, yes, I am going to build out, and I 
will deal with the United States on the top of the mountain, 
not while I am climbing the mountain, but when I get to the top 
of the mountain. I understand that philosophy.
    We need to come up with a solution that is going to be a 
win-win for everyone. But the benefits do not meet the costs, 
especially for urban communities. And let me speak for the 
African-American community since I am African-American.
    Senator Barrasso. Thank you very much, Mr. Alford.
    Mr. Krenicki, I am impressed with the commitment to try to 
keep cleaner sources of energy. I have been saying we want to 
make energy as clean as we can as fast as we can without 
raising the costs to American families.
    You have a project going on right now in Wyoming to use 
coal, which is an affordable, available, reliable and secure 
source of energy, but do it in a cleaner way. I was wondering 
if you could give us an update and talk about that a bit.
    Mr. Krenicki. Yes. We are working with the State and the 
University of Wyoming to develop advanced technology for Powder 
River Basin coal and also carbon capture and sequestration. 
What the coal industry needs is a future and a future 
technology, a new branch of the tree. We think gasification 
with captured storage is the way to go. We can create a 
synthetic natural gas.
    I think one idea, also in concert with what we are doing in 
Indiana with Duke, is we ought to build a half a dozen large 
scale demonstration projects in this country and get China to 
go along with us. I think if we did six, they would do six. And 
we can put in place a technology future for the next 100 years.
    So again, we appreciate the support from the State, and we 
are working very closely there. But it is a linchpin of our 
strategy of a diversified solution.
    Senator Barrasso. Great. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator Barrasso.
    And we will go to Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Madam Chair.
    I saw in the news the other day that the Toyota automobile 
company has just filed its two-thousandth patent for its hybrid 
motor technology, which obviously represents an enormous store 
of intellectual property now protected by law. And that seems 
to be a pretty stark example of the advantages versus the 
disadvantaged of being the tailing versus the leading edge of 
technology. The intellectual property you gain at the front can 
have enormous future value. We do not seem to be adequately 
aware of that in this discussion.
    It comes home to me because on Aquidneck Island in the 
middle of Narragansett Bay we have just put up two enormous 
wind turbines. The people who live on Aquidneck Island are very 
proud of them. When they were being assembled and put up, 
crowds came to watch. People brought sandwiches to see it. I 
mean, it was sort of a community event. It was almost like a 
barn raising. So we are very, very proud of it.
    And for the folks who put them up, it is a good financial 
proposition. One of them estimates a 100 percent payback in 5 
years, and after that a pure profit at about a quarter of a 
million dollars a year in electricity savings. So it is a good 
business proposition on that element of it.
    But one of them was manufactured by a Danish company. It 
was put up in Rhode Island, but the manufacturer was Danish. 
And the other one was manufactured by a Canadian company that 
had licensed Austrian technology, and the turbine was assembled 
in Austria, shipped over to Canada for further assembly, and 
then just the big pieces put together onsite. So, even our good 
stories have, right behind them, a story of lost 
competitiveness.
    I would like to ask you to go back to my earlier question, 
during the opening statements, about what the opportunity costs 
are. Because, as you have seen in this incredibly frustrating 
room, there is a very strong do nothing caucus in the Senate. 
Their emotion is fear, their goal is doubt, and their arguments 
are precisely aligned with the polluting industries and with 
big oil. But the premise of their arguments is that it is going 
to be just OK if we do nothing.
    If you could comment on that, I would appreciate it.
    Mr. Doerr. Thank you, Senator. We need to look no further 
than the U.S. automobile industry to see what the consequences, 
the enormous consequences, are of doing nothing. Our policies 
sheltered the U.S. automobile manufacturers from meeting high 
standards for emissions, for fuel efficiency, every year, year 
after year, in defense of American jobs. The European and 
Japanese automobile manufacturers rose to high levels of 
efficiency and were certainly not put at a disadvantage as 
their nations enacted those standards.
    I am confused. The private sector is confused. And we are 
waiting. And honestly, we are also frustrated. If a large 
number of multi-national companies, if six to eight American 
utilities who reach into 35 States in our country, have all 
endorsed the Waxman-Markey bill, they are in favor of that 
specific piece of legislation, does that matter at all? Does 
that mean anything about America's economic future and jobs? I 
think it should.
    Pacific Gas & Electric, National Semiconductor, eBay, 
Starbucks, the U.S. Conference of Mayors, the FPL Power Group, 
Siemanns, the Evangelical Lutheran, it goes on and on and on 
and on. There is not one of these organizations that does not 
care about jobs or does not care about America's future.
    I submit that this should not be a partisan matter. This is 
about whether or not our country is going to be one of, I did 
not say the hands down, but just one of the worldwide winners 
in the next great global industry.
    The wind is free that you spoke about. Let me name the top 
five producers of wind in our country. No. 1 is Vestas. No. 2, 
GE. There is Gamessa, there is Intercon and there is Suzlon. 
Only one of the five is American. That is not acceptable.
    Senator Whitehouse. Mr. Krenicki.
    Mr. Krenicki. I agree with Mr. Doerr that these are highly 
competitive global industries. We compete against a multiple 
number of competitors in the United States, also in Europe and 
China. Let me give you an example. In the wind industry, we 
have 70 Chinese competitors that we compete against. So, the 
stakes are high, and it is tremendously competitive.
    But I think that one advantage of acting sooner rather than 
later, acting now, making a down payment on climate change, 
taking advantage of a softer environment when commodity prices 
are lower, we could install and change the energy mix of this 
country earlier and make a down payment on where we want to 
take this country going forward. Because that is what other 
countries are doing.
    China installs, per year, the equivalent capacity to the 
U.K. grid per year. And I can tell you, as a company that 
operates in China fairly effectively, they are moving forward 
on all fronts, on nuclear, on wind, on hydro, on biomass, 
because one of the key elements of their 5-year plan is self-
sufficiency. They want to be energy independent. I think we can 
learn from them. And they will execute and follow through and 
get it done.
    Senator Whitehouse. I just would like to conclude my time 
with the observation that I think we would do better if we had 
a common understanding of what our situation is. I see it as 
time sweeping us relentlessly into a point of change in which a 
decision has to be made.
    It is not enough to say, stop the world I want to get off, 
as the do nothing caucus would have us do, however beneficial 
that might be for the polluting industries that would like the 
status quo to continue. The status quo simply will not 
continue. That is not a live option. Even though, if we fail, 
certain industries might benefit, we have to take the view that 
we have to put in place the parameters for America to succeed 
as a Nation.
    In addition to the economic point of it, some of us, 
particularly me from a coastal State, I come from the Ocean 
State, our capital has been leveled by hurricanes. If the ocean 
level increase that is widely anticipated happens, we will lose 
whole towns to the encroachment of the sea. For our Ocean 
State, this is, in many respects, a life and death matter.
    And the notion that we can hear these alarm bells going off 
from very responsible sectors of the scientific community and 
not act, and not feel any urge to an appropriate precaution, 
seems to be completely at odds with the reality of this 
situation.
    I would suggest that many of my friends on the other side 
would be far more cautious in their own lives. I do not think 
there is one of them, if they woke up in the middle of the 
night in their home with their family and heard the smoke alarm 
going, would say, well, I have here a report from the 
Department of Firefighters Who Would Rather Stay in Bed which 
says that, you know, 9 percent of these are because of battery 
failure, so I am not going to check it out, I am not going to 
wake up the kids. Do not worry; we are just going to stay here 
in bed.
    It would be irresponsible. It would be reckless. It would 
be taking risks with an important trust, the health of their 
children. I do not know why it is that, in this room, we behave 
differently than we would in our own lives if we had a real 
appreciation of what the circumstances were.
    Senator Boxer. Senator, thank you.
    Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman, and thanks again 
to the witnesses for coming.
    Senator Whitehouse got fired up there as far as his friends 
on the other side. Here is our policy. We have a low cost, 
rather than a high cost, clean energy policy.
    No. 1, all 40 of us want to build 100 new nuclear power 
plants in 40 years. That is 70 percent of our carbon-free 
electricity today, and it would double it to 40 percent of our 
total electricity.
    No. 2, we would like to electrify our cars and trucks for 
conservation. I believe, personally, that we can electrify half 
of them in 20 years without building one new power plant if we 
plug them in at night.
    No. 3, we would explore offshore for natural gas, which is 
low carbon, and oil. We need to use more of our own. And No. 4, 
we would double research and development for energy. In my 
view, we should launch several mini-Manhattan Projects on grand 
challenges such as solar batteries, advanced biofuels, making 
solar costs competitive, fusion even for the long term, etc.
    So that is our position. And I would rather characterize it 
myself rather than have someone who apparently had not read it 
characterize it.
    Now, let me ask Mr. Doerr a question. The Senator from 
Rhode Island talked about inaction. I say this as someone who 
would like to see a climate change solution. I have sponsored 
one ever since I have been here. I am trying to still figure 
out why this deafening silence about nuclear power. Not only 
did the three of you not write about it much in your testimony, 
you did not even talk about it except when asked.
    Let me ask you, Mr. Doerr, do you consider nuclear power a 
renewable energy?
    Mr. Doerr. Nuclear power is a carbon-free energy. My focus 
and expertise is renewable energies. I am not an expert in 
nuclear. But I want to tell you this, Senator. I do believe it 
needs to be part of our portfolio of low carbon solutions for 
the energy problem.
    I would also like to tell you further that I am a supporter 
of Senator Bingaman's CEDA, the Clean Energy Deployment Act. I 
understand that is developed in another committee here, but 
these issues are so important that I know they are coming 
together. Climate and energy are very complimentary policies, 
and as I understand it, the Nuclear Energy Institute supports 
the CEDA because it can help----
    Senator Alexander. Well, that is not my question----
    Mr. Doerr. Help meet those goals. I am telling you where I 
stand, Senator.
    Senator Alexander. Well, I asked you if you believed it was 
a renewable energy.
    Mr. Doerr. It is a low carbon energy.
    Senator Alexander. Right. Well, I want to talk, and I am 
honestly trying to understand this, I am trying to get the 
bottom of this, if nuclear energy produces 70 percent of our 
carbon-free electricity, and our goal is to reduce carbon, why 
is it not at the top of your list, is it not the major thing 
you would want us to do?
    Would you agree, you did say it was carbon-free and ought 
to be included, does that mean you think it ought to be part of 
the renewable energy resources like wind and solar and 
geothermal and renewable biomass that are encouraged in the 
renewable energy mandates that the Waxman-Markey bill contains?
    Mr. Doerr. My personal opinion? Sure. I think it ought to 
be encouraged. The scientists would tell us that it actually is 
not renewable. We are expending resources, uranium, when we are 
producing this energy. But that is not the reason that it is 
not at the top of the list.
    The reason it is not at the top of my list is it takes 20 
years to permit, approve and build a new plant. We need more 
nuclear in our country. But we also need action on the matter 
that I came here to talk about today and that matters the most, 
and that is competitiveness. If we wait a decade to get America 
in this race, we are out of it. It is gone. As Tom Friedman 
said, China is going to clean our clock.
    Senator Alexander. Well, Mr. Doerr, would you agree that to 
encourage carbon-free nuclear energy it ought to be included in 
the Renewable Energy Production Tax Credit, which provides 3 
cents per kilowatt hour for carbon-free electricity produced 
by, primarily, wind?
    Mr. Doerr. What I would agree with, Senator, and I am not 
an expert on legislation, I come here as a businessman to build 
jobs----
    Senator Alexander. Well, should it have the same Government 
support that wind does?
    Mr. Doerr. Well, it has considerable Government support. 
Who pays for the costs of disposing of all of the nuclear waste 
today? The American taxpayer. If we adopt----
    Senator Alexander. The American ratepayer, sir. Let me, if 
I may ask the questions, my questions are, if it is carbon-
free, as you have said it is, should it have the same kind of 
Government support that other carbon-free energy does?
    Since 1992, 75 percent of the Production Tax Credit went to 
support wind. It did not go to solar. So, I would ask you, 
should nuclear also be supported by the Production Tax Credit, 
by the Investment Tax Credit, such as supports solar, and 
should it also be included in the renewable fuel definition so 
that we encourage all carbon-free energies and, in fact, have a 
clean energy policy rather than just a windmill policy or a 
solar policy or a geothermal policy or whatever we might be 
invested in or think is important to us?
    Mr. Doerr. So, I would say no, and here is why, Senator. I 
think the most important thing for us to do is to get the big 
policy right. A cap on carbon emissions, and a price for those, 
as the legislation sets forth, will favor nuclear energy based 
on its competitiveness, or wind, or solar, and at the highest 
levels, I do not believe the Government should be in the 
business of picking the winners and losers. Now let me continue 
please----
    Senator Alexander. But Mr. Doerr, I only have 4 minutes 
left. The Government has enacted a Production Tax Credit so 
narrowly defined it is mainly a windmill tax credit. Those of 
you who are interested in solar energy got the Government to 
enact support for an Investment Tax Credit, which also includes 
solar, and which I support.
    Mr. Doerr. I do, too.
    Senator Alexander. So, now we have Government picking wind, 
Government picking solar, and wind and solar together produce 6 
percent of our carbon-free electricity. And nuclear produces 70 
percent. Why should it not be treated the same?
    And then our renewable energy mandates, if we included 
nuclear power, if it were a carbon-free mandate instead of a 
narrowly defined mandate, we would, I mean, Tennessee would be 
40 percent.
    Let me ask you this. What if I proposed a 20 percent 
nuclear power mandate for California because nuclear is 100 
percent carbon-free. Would you support that?
    Mr. Doerr. Senator, you know how much I respect you. I 
deeply do. And I was not able to finish my response to your 
earlier question.
    We have got to get a big policy right. It should not pick 
winners and losers. But that will not be enough. We have a 
multi-billion dollar incentive right now to get American 
battery manufacturing in Michigan, which I wholeheartedly 
support, and we must have it to electrify the American 
automobile fleet, unless we to trade our dependence on oil from 
the Middle East for a dependence on batteries from Asia.
    So, my point is the following: in addition to getting the 
big thing right, the cap-and-trade, it is totally appropriate 
and necessary for us to target, on a temporary basis, for a 
period of time, declining over time, wind and solar.
    Senator Alexander. What is the period of time? We have been 
subsidizing wind since 1992.
    Mr. Doerr. My guess is it is about another 10 years. 
Denmark has been subsidizing wind since 1970, and now they are 
No. 1 in the world. And watch my words, it is for a declining 
amount over time. Let me get through----
    Senator Alexander. You and I agree that wind and solar are 
not base load energy, that they are a supplement to the base 
load energy that we need, and that nuclear is really the only 
source of electricity that we have that is cheap, clean and 
reliable.
    I mean, in order to build the polysilicon plants in 
Tennessee, you have to have the nuclear plant or the coal 
plant. You could not operate it based on the solar plant or the 
windmill.
    Mr. Doerr. I would agree with you that nuclear is a base 
load technology, and it is very low carbon.
    Senator Alexander. It is zero-carbon.
    Mr. Doerr. It is zero-carbon. I will also tell you, with 
innovations in the labs, not out in the marketplace, we are 
seeing breakthrough battery technologies that can make wind, in 
fact, together with the batteries, dispatch able. And that is 
the kind of American innovation we want to encourage.
    If I can return, not to be a broken record, but return to 
the most important refrain----
    Senator Alexander. Leave me about 30 seconds of my time, if 
you would.
    Mr. Doerr. We have got to put a price on carbon and a cap 
on carbon emissions across the whole economy without picking 
winners or losers if we really want America to compete and to 
get these innovations into the market quickly. I have nothing 
against nuclear except that it takes 20 years to deploy a new 
facility.
    Senator Alexander. The Tennessee Valley Authority just 
restarted Browns Ferry. They built it in 3 years. They thought 
it would take 10 years to recapture the $1.8 billion 
construction costs. It took 3. And now all those profits are 
going to have low cost energy so we can build polysilicon 
plants in Tennessee, keep jobs in Tennessee for auto companies 
instead of putting them overseas.
    See, my concern is that you are exclusively focusing on 
winners and losers with a renewable energy standard, and you 
are not having an across-the-board clean energy standard. And 
you are focusing just on green jobs, and you are not 
remembering that cheap, clean energy is what will provide the 
largest number of American jobs. Green jobs are a very small 
part, a very good part, but very small.
    Mr. Doerr. I agree with you that green jobs is a misnomer. 
And green jobs is limiting. I am talking about jobs that are 
engineering jobs, they are manufacturing jobs, they are 
construction jobs, they are blue collar jobs, and they are 
white collar jobs. But those jobs are going to come from 
America committing to a low carbon energy future.
    Senator Alexander. And the way to create the largest number 
of those green kinds of jobs, or those kinds of jobs, would be 
to build 100 new nuclear plants in 100 years. The welders, the 
construction jobs, the manufacturers would be many more than 
these others that you are describing.
    Thank you, Madam Chairman, you have been generous with the 
time.
    Senator Boxer. Well, Senator, I know I have been. And I am 
going to, therefore, put a few things in the record. One of 
them is that the Waxman-Markey bill modeling shows that more 
nuclear plants would be built under the Waxman-Markey bill than 
you are proposing, and the cost would be offset with tax 
credits, and the ratepayers would not have to pay. That is No. 
1.
    No. 2, the record needs to show that since the 1950s, we 
have had the Price-Anderson Act, and the Price-Anderson Act is 
the taxpayers backing up a nuclear accident. So, to say that 
there is not taxpayer involvement is not correct.
    Also, in recent energy bills, one of them gave long 
guarantees for nuclear plants, and a Production Tax Credit was 
in the latest act. So, I just think that when it comes to 
nuclear, I understand your position, but I really hope you 
would take a look at Waxman-Markey because, if nuclear is your 
passion, you are going to have more plants built under that 
than you would and the consumers pay less. I do not know why we 
continue to have these arguments.
    Senator Alexander. Could I make a correction, Madam 
Chairwoman?
    Senator Boxer. Yes, you can.
    Senator Alexander. Under the Price-Anderson Act, the 
taxpayers never paid a penny for a nuclear accident, and under 
the way it operates today they would not because, the way it 
operates, is that every one of the 104 nuclear power plants are 
liable for up to $100 million in the event of an accident. So, 
the money would come from the ratepayers and the nuclear 
plants.
    The loan financing that you spoke of is available to all 
clean energy, which is what I think all of these policies ought 
to do, and I do not know why nuclear is not included.
    And while we are at it, well, I will leave it alone.
    Senator Boxer. Well, Senator, I just have to let the facts 
speak for themselves. The fact is that there is a limit on the 
insurance that nuclear power plants have to pay because they 
cannot get the insurance that is required, and the taxpayers 
are on the hook if there is a major crisis. That is not 
debatable. That is the fact.
    Senator Alexander. No, $100 million----
    Senator Boxer. Let me finish. And then I will call on you.
    We know the costs if there is a tragedy. What they would 
be, $100 million may not be enough. That is why the taxpayers, 
since the 1950s, have stood behind this. I do not know why we 
argue about everything. That is the fact. And I think you 
should be grateful for the Price-Anderson Act and the fact that 
American taxpayers are on the hook. But to say that there has 
been no involvement of American taxpayers, that just flies in 
the face of the law.
    I think we should, perhaps, have an exchange of letters on 
the point. But I do not see----
    Senator Alexander. I will come visit with you. We do not 
have to get formal about it.
    Senator Boxer. You can visit with me any day of the week. 
But I will have, when you visit me, a copy of the law, and I 
would challenge you to show me where we say to our windmill 
companies and to our solar companies or to even our coal 
companies that the taxpayers back them up in case of an 
accident. So, let us not, you know, paint a one-sided picture.
    Every major nuclear company that I am aware of supports the 
Waxman-Markey bill. I met with Entenergy, and there are many 
others----
    Senator Alexander. Well, absolutely they do, because they 
make loads of money from it.
    Senator Boxer. Well, I do not know. On the one hand, you 
want----
    Senator Alexander. It collects $100 billion every year, and 
a lot of it goes to businesses, and a lot of it goes to certain 
power companies.
    Senator Boxer. Well, I am glad that you admit that they 
support it.
    Senator Alexander. I will come see you about Price-
Anderson----
    Senator Boxer. Please. That would be great.
    Senator Alexander [continuing]. Because the fact of the 
matter is, taxpayers have never paid a penny as a result of 
that----
    Senator Boxer. We know. We know that.
    Senator Alexander [continuing]. And today, if there were 
any kind of accident, $100 million would come from every one of 
104 nuclear power plants. They are self-insured.
    Senator Boxer. Well, if you do not think we need it, then 
let us cancel it.
    Senator Alexander. I did not say that. I am just correcting 
the record.
    Senator Boxer. Well, you are saying that $100 million 
should cover it. You are implying that.
    Senator Alexander. I said $100 million times 104. Every one 
of the 104 plants is responsible if there should be any problem 
at any nuclear power plant.
    Senator Boxer. Well, let us take another look at this act 
then. Maybe we do not need it. Maybe the coverage the nuclear 
plants have is enough and we do not need Price-Anderson.
    Senator Alexander. It created a mechanism for self-
insuring, which does not cost the taxpayer any money----
    Senator Boxer. Unless there is a humongous accident----
    Senator Alexander. Which there never has been.
    Senator Boxer. Well, that is what insurance is all about. 
You might have heard of Chernobyl. But I think we will just 
move on, because the fact is, the reason I am perplexed by your 
opposition to Waxman-Markey is because the nuclear power 
industry understands that they would build more plants under 
that than any command and control system that the Senate could 
devise. I am going to leave it at that.
    Senator Alexander. But, Madam Chairman, I did not say a 
word about Waxman-Markey. All I was talking about was the 
renewable fuel standard, the Production Tax Credit and the 
other Federal policies and mandates and asking whether nuclear 
should not also be included because it is our principal 
supplier of low carbon electricity. That is all.
    Senator Boxer. And my point is that any bill that comes out 
of this Senate is going to be a boon to the nuclear industry.
    Now, I would like to call on Senator Merkley.
    Senator Merkley. Thank you, Madam Chair. I think the 
nuclear industry should feel very good about having this 
argument over whose plan provides more subsidies for nuclear 
power.
    I guess I would have to say that I would like to see 
nuclear power compete on the same level playing field. I am 
concerned that by the time you address the possibility of human 
error, the possibility of natural catastrophe, the possibility 
of protection against a terrorist attack, you include the life 
cycle cost of dismantling the plant, you include the costs of 
reproducing and storing fuel, and I have not seen numbers yet 
that show it is cost competitive.
    What I do not want is an energy policy that drives up the 
cost of energy in the United States of America. It is simply an 
economic argument. But there is also an environmental concern 
if we do have that catastrophe.
    But if we can keep the argument in the context of how we 
create affordable, reliable energy addressing life cycle costs, 
I think it probably would be helpful.
    I wanted to ask about the impact of staying on the course 
we are on right now. I look at a situation where we had $4 per 
gallon gas last summer, just a year ago, the fact that we have 
3 percent of the oil reserves, that we burn 25 percent of the 
world's oil in terms of annual consumption, and it looks like a 
path to me of catastrophe if we do not proactively change our 
energy strategy, a catastrophe for our economy.
    So, I invite insights in very quick form, if I could.
    Mr. Wong. Well, Senator Merkley, I think you hit the button 
on the nail. The cost of inaction, like I was alluding to in my 
testimony, the cost of inaction is going to be so much far 
greater than the cost of action.
    NOAA came up with a report that was completed under the 
Bush administration, and they released it about a month ago, 
that itemized and in very fine detail described the costs of 
inaction of climate change, what it would do to our 
agricultural sectors, what it would to our physical 
environment. So there is really no point in talking about the 
costs of complying with a climate legislation or climate law if 
there is not going to be a physical environment for us to live 
on.
    Senator Merkley. Yes, and you have made those points very 
well. But I am really asking the economic argument over what 
happens to the price of oil and the cost to our economy and the 
impacts of that on jobs if we stay on the current course and we 
are looking 10 years down the road.
    Mr. Wong. Right. I think current policies do not embrace 
energy efficiencies. As Senator Carper said, the cheapest form 
of energy is the energy that we do not use. If you stay on the 
current course, we will not be picking the low hanging fruit 
that is right before us, we will not be seizing the economic 
opportunity to save costs. Oil and gas prices, particularly oil 
prices, are going to fluctuate, but they are on the upward 
trend, undeniably. We have already seen oil prices rebound, 
doubling the price since the beginning of this year.
    We really need to pass legislation that is really 
aggressive in saving consumers electricity energy efficiency 
standards and renewable electricity standards.
    Mr. Krenicki. I would just add, Senator, that, as we model 
the next 20 or 25 years, the demand for electricity will double 
worldwide, the needs for clean water will triple, and in the 
oil and gas space, the world will have to develop another five 
or six Saudi Arabias to meet demand. So, the challenges are 
dramatic, and a lot of that is driven by what happens outside 
of the United States. But those are how we see the macro-
environment.
    Mr. Alford. Senator, I think supply and demand cannot be 
overlooked. Also, I think offshore drilling. We have enough 
natural gas supplies and oil reserves within the United States 
that we probably could exploit far more than what we are to 
keep us for being so vulnerable to price fluctuations with oil.
    Senator Merkley. Let me turn to a different question. The 
goal of the House bill is to reduce carbon dioxide by 17 
percent over the 2005 levels. That is an interesting number, 
because the bill also concludes 2 billion tons of offsets, 
which is actually 28 percent of the 2005 emissions.
    Is anyone worried that with so many offsets it will mean 
really insufficient investment in building a clean energy 
economy right here in the United States?
    Mr. Doerr. Well, Senator, I think you have identified 
correctly that the design of offsets is a really key issue. I 
am convinced that we can design offsets so that they add to 
environmental certainty, not subtract from it, while 
maintaining price controls. But that is a separate issue and 
apart from the issue of competitiveness.
    Turning to your question about the 17 percent reduction 
target, I favor a more aggressive target because I think we are 
well behind the climate change curve. But I am a pragmatist. 
The 17 percent target appears to be the one that will allow us 
to start down the march toward a low carbon economy, and it 
therefore has my full support.
    I am convinced, as I have said before, that carbon 
abatement would be cheaper and faster than most people suggest 
because of innovation. And if we start with this 17 percent 
early, and do it at a profit instead of at a cost, then our 
whole political discussion is going to change.
    By the way, every major company that I know of that has set 
any kind of carbon targets has beaten them and has made money 
while they are doing that. So, our experience on this is very, 
very positive. Let us start with 17 percent, or if the Senate 
can improve it, please do, and get going.
    Senator Merkley. If I caught that right, you said you are a 
pragmatist, so you can deal with 17 percent, but you think that 
to really drive the transformation, we should have a higher 
number?
    Mr. Doerr. Almost. I said I would personally prefer a 
higher number. But I think if we set any meaningful price on 
carbon and a cap, for certainty, with respect to the emissions, 
we are going to unleash a wave of American innovation that is 
going to make it profitable to go even faster.
    Senator Merkley. Well, I would certainly agree with that, 
as long as the offsets do not end up being the way that we 
pursue this, because if it only offsets and then we do not 
have, essentially, a market in allocations, then I think that 
would severely undermine, am I on the right track there, 
severely undermine the pace of innovation.
    Mr. Doerr. I agree.
    Senator Merkley. Anyone else want to join in on that point? 
OK.
    The point was put forward about a guaranteed market, if you 
will, in terms of a renewable energy standard. Oregon 
established a 25-25 standard. That is 25 percent of renewable 
energy by 2025. That is on top of the hydropower that Oregon 
currently has, so it really amounts to a 65 percent standard by 
2025.
    What would be the ideal standard and what would be the 
stepping, if we took a near-term approach, what should be the 
standard at 2012 and 2025, from a policy point of view, not 
from a political pragmatic point of view?
    Mr. Krenicki. In order to stay on the path we have been on 
for the last 3 years, 12 percent by 2012 would keep things 
moving forward on the same path. If a broader concept was 
considered where nuclear or cleaner coal was included, and it 
was a clean energy standard versus a renewable energy standard, 
of course the target would have to be even higher. But 12 
percent on an as-established standard, because we will finish 
2009 at around 6 percent, and what is in current legislation is 
6 percent or lower by 2012. So, there would be no incentive for 
any incremental investment.
    Senator Merkley. Any argument? Do the other folks agree 
that 12 percent might be about right to aim for by 2012? Any 
other further thought on that? OK, that is great.
    I am going to turn to the issue of energy efficiency and 
how much effort should be, well, right now we have it as kind 
of a junior partner in this bill. Should it be promoted to 
being a senior partner, and if so, in what format?
    Mr. Doerr. If I may, Senator, I think you are on to a very 
important issue, the power of efficiency. I do not consider 
myself qualified to determine what part of the bill ought to be 
this and what part of the bill ought to be that. But I want to 
make this point, because it goes to jobs, and jobs right away. 
The most expensive wasteful energy we have in our country is 
when millions and millions of American homes use their furnace 
to heat the cold atmosphere, or use their air conditioner to 
cool the hot atmosphere.
    A McKinsey study has demonstrated that the highest return 
investment in clean energy is home insulation. We have over 1 
million out-of-work construction workers right now. And if this 
legislation was crafted, just modestly, to do two things, 
provide our utilities a profit incentive for using their scale 
to employ these millions of out-of-work construction workers 
insulating American homes, starting at the end of this year, we 
know how to do this, they know how to do it, the savings for 
the American consumer would be realized in less than a year, 
and those savings would re-circulate in our economy.
    Our utilities can be much more powerful allies in driving 
our country to a clean, more prosperous future. They have a 100 
percent market share. They have very low costs of capital. They 
have vast cash-flows. Modest incentives from our Federal 
Government can get them to be allies in this most important 
part of efficiency.
    There are standards for appliances that are incredibly 
important, standards for cars. I think you are on to a very, 
very important topic, Senator. It should be a senior partner.
    Senator Merkley. My time is up, but I really appreciate all 
of your testimony and assistance in the committee pursuing a 
smart energy policy. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Udall.
    Senator Udall. Thank you very much, Madam Chair, and thank 
you to the panel. You have endured a lot here, and I think it 
has been a very, very good discussion.
    One of the things that I wanted to ask about, in particular 
Mr. Doerr and, Mr. Wong, to you, the contrast here. We have 
heard with some of the questions a position that this is just 
going to cost jobs, and repeating it over and over again, if 
you do the Waxman-Markey bill, it is going to cost jobs. Then 
you all have been very strong advocates of the other side.
    Why do you see such a disagreement here on this? Please, go 
ahead.
    Mr. Doerr. All of the surveys, sorry, all of the claims 
that I have seen that this will cost jobs are based on surveys, 
surveys from academicians. They are not based on experience 
building jobs or building companies.
    I want to say another important thing I said earlier, and 
stress it. All of these surveys from the academicians take no 
account for innovation. No account whatsoever for innovation.
    It is as if we ran a survey 15 years ago that said what 
impact computes are going to have on America without taking 
into account the Internet. Fifteen years ago there was no Web 
browser. How many of us could do our work today without this 
idea? Point, click, innovation. It has transformed the way we 
live, work, play, conduct commerce, entertain, inform and 
educate.
    That is what happens when you rely on an economic survey 
from respected economists in universities and do not take into 
account innovation. That is my line of business. I have seen 
the innovations that could be possible. These innovations will 
occur. They are not going to occur in America if we do not 
create large American markets, and we need a cap on carbon and 
a price on the emissions to get there.
    Senator Udall. And I think you are also an advocate of a 
renewable electricity standard?
    Mr. Doerr. Absolutely.
    Senator Udall. And that you believe, too, as I think you 
responded to a question that if we do Investment Tax Credits 
for solar and wind and biofuels, those kinds of things, to jump 
start them for a short period of time. And your argument is 
that you put all of that together, and you have the Government 
not picking winners or losers, but moving us in the direction 
of a clean energy economy.
    Mr. Doerr. That is absolutely correct, Senator. There is 
going to be no silver bullet. The biggest bullet we have got is 
putting a price on carbon and a cap on emissions. But that 
alone is not sufficient. That will not get us to electrified 
clean automobiles fast enough. That will not get us to a 
competitive world class wind industry with multiple leaders, 
leaders in addition to the fine work that GE is doing.
    So, I believe in targeted incentives. But I believe in 
getting the No. 1 thing, the big thing, right.
    Senator Udall. Now, the other side of this is, and this has 
been asked several times in several ways, inaction. We have not 
taken decisive action in this area. We have debated a lot. The 
House, in the last couple of years, passed a Renewable 
Electricity Standard. The Senate passed one. We never came 
together. We have not been able to. The Chairwoman has been the 
only one to be able to bring a bill to the floor that was a 
climate change global warming bill.
    So, what are the costs to inaction, as the way you see it? 
Have those been studied? And where do you think we are headed 
when we talk about costs of inaction?
    Mr. Doerr. I think the real costs of inaction I find 
terrifying. I think we underestimate how long it is going to 
take to turn this around. We have no accounting for the true 
costs to our health, to our competitiveness.
    We are dumping 70 million tons of CO<INF>2</INF> in the 
atmosphere every day as if our skies were some kind of free, 
cheap, open sewer. We have done no accounting for this.
    We have done no accounting for what the science tells us 
will already happen in the rise of temperatures, the hundreds 
of millions of people around this earth that are going to 
starve because of climate change. The people who are the least 
responsible for these problems, who are least capable to cope 
with them, are going to be visited with the most severe 
consequences.
    But I am not an expert on those matters. I come here as a 
businessman who helps people build jobs and build industries. 
And I know we have barely got a dog in that fight. We are not 
in the game right now.
    Senator Udall. Mr. Doerr, if we did all of the things that 
we just talked about there, an RES, a price on carbon, cap 
emissions, Investment Tax Credits into the renewable area, is 
it your opinion that there is venture capital waiting out 
there? I have heard amounts thrown out, billions of dollars of 
venture capital if you send the right signals, wiling to go 
into these areas and innovate and experiment and do things in 
terms of creating jobs.
    What are your thoughts on the amounts of capital we could 
attract by taking this?
    Mr. Doerr. Senator, that is an excellent question. Last 
year, there was about $3 billion of U.S. venture capital in 
North America devoted to clean technologies. It was No. 3, I 
must tell you, behind the Internet and behind the life sciences 
area. I must tell you also that my overwhelming conclusion is 
that it is not enough. It is not enough by a lot.
    But, this is the beauty of Waxman-Markey. This is the 
beauty of a price and cap. When we send a long-term steady 
signal to the marketplace that we are going to put a price on 
carbon and favor the innovative energy that does not rely on 
it, we unleash enormous, you will unleash enormous market 
forces. More money flows through the world's financial markets 
in a day than through all the governments of the planet in a 
year.
    So, with this modest 17 percent cap, with this price that 
the market determines, we should be investing $50 billion a 
year of venture capital in North America in clean tech energy 
innovation. At the height of the Internet boom, we invested 
$100 billion a year in some very great valuable companies and 
in a bunch of otherwise inconsequential, anonymous, socially 
networked chatting Web sites that do not make any difference.
    This is vital. This is America's economic future. It is the 
health of our planet. It is the health of our kids. It is 
whether or not we are going to lead in the next great global 
industry.
    Senator Udall. Mr. Wong, please.
    Mr. Wong. Thank you. To answer your first question, I think 
the reason why a lot of these studies that paint this doom and 
gloom picture, that say that clean energy policies are going to 
lead to a loss of jobs and increased costs, is that they do not 
have the vision. They do not have the vision that we have an 
opportunity to create new sectors that unleashes an incredible 
amount of innovation and create an incredible new era of job 
creation.
    Some of these studies, they predict that renewable energy 
costs will remain the same, remain high and never decrease. 
They underestimate the learning curve that we can work on to 
reduce these costs as we scale up these new technologies.
    I think we can take a page from what China is doing. They 
have made energy efficiency the pillar of their, not just 
environmental policy, but economic policy. They recognize that 
the five most, and this is from Todd Stern who delivered a 
speech a couple of months ago, they recognize that the five 
most polluting industries, heavy industries which account for 
50 percent of carbon emissions, only provide the employment of 
14 million people. That is a lose-lose strategy, which is why 
they are aggressively working to restructure the economy to 
move toward the high tech, to move toward clean energy.
    They recognize that clean energy jobs create three times as 
many jobs as their fossil fuel counterparts. That is the kind 
of strategy that we should be learning from other countries.
    Senator Udall. Thank you. I know, Mr. Krenicki, that you, 
and it is a little bit off of this committee, but you had 
advocated for a stronger RES standard, the Renewable 
Electricity Standard. Could you just tell us briefly, as a 
businessman, how the lack of a strong Federal standard impacts 
a multi-national firm's investment decisions about to locate a 
manufacturing facility or create new clean energy jobs?
    Mr. Krenicki. OK. Just in the wind business, we have the 
same capabilities in China and Europe, and will have in India 
shortly, that we have in the United States. Our employments and 
levels of production will fluctuate based on the local market.
    One thing about the wind industry is transportation costs 
are very, very high. Components are large. So, it makes sense 
to manufacture in the largest markets, and that is how we see 
the dynamic. So, if the U.S. market, on a relative basis, is 
big, our employment here will follow that trend and vice versa.
    Senator Udall. Thank you, Madam Chair. It has been an 
excellent panel.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    The naysayers on climate change say that we could hurt our 
competitiveness if we act ``unilaterally.'' I believe the 
naysayers have it exactly backwards. In fact, we have been 
unilateral in our failure to act. There is mounting evidence 
that nations like China are moving ahead of us in the race to 
clean energy.
    Chinese fuel economy standards are higher today than ours 
will be in 2020. China is at 35 miles per gallon for 2008 and 
going to 42 miles per gallon by 2016. We do not reach 35 MPG 
until 2020.
    China has already set a 15 percent renewable electricity 
standard (RES) for 2020, and their government recently said 
they could reach 20 percent. In the United States, the House 
and Senate have separately approved an RES in recent years but 
have failed to achieve final passage.
    The EU has a 20 percent RES which is projected to create 
2.8 million jobs in solar panel and wind turbine manufacturing 
where they already outrank us.
    Germany has a 30 percent RES by 2020 and a 50 percent 
target by 2030. Germany is a global leader in solar power, 
despite being at the equivalent latitude as Alaska.
    In fact, at least 66 nations by our count have a national 
target for renewable energy, including China and India, meaning 
that the U.S. is isolated for its lack of an RES.
    Brazil is the world's largest producer and consumer of 
renewable transportation fuels, and 45 percent of Brazil's 
energy comes from renewable energy.
    China and Germany are vying for the world's leader in 
renewable energy investment, with each over $12 billion per 
year.
    South Korea will invest $84 billion in renewable and 
efficiency over 5 years.
    Including energy efficiency, China is investing over $220 
billion between now and 2010 to green their economy as part of 
their fiscal stimulus package, over $12 million each hour.
    In 2009, China became the world's largest clean energy 
investor and plans to spend nearly a half-trillion dollars over 
10 years.
    China is the leading manufacturer of wind turbines and 
looking to expand to the U.S., and they have 65 percent of the 
solar thermal water heating market.
    China generates a higher percentage of its power from wind 
power than we do in the U.S.; in fact the U.S. ranks only 10th 
worldwide.
    In the early 1990s, the U.S. invested solar photo-voltaic 
technology, but now China is the largest producer, and we rank 
5th, behind Japan and Germany.
    India has launched its National Solar Mission, which plans 
to install 20 gigawatts of solar by 2020 to bring the cost down 
to fossil fuel levels.
    Investors across America, from Silicon Valley, to Wall 
Street, to Main Street, to the innovation hubs of New Mexico 
want to join in, but they need leadership from Washington, DC.

    Senator Boxer. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you for holding this hearing. I have been going back and forth 
to another hearing where there are a lot of cameras and lights, 
so it is nice and cool in here. Thank you.
    I wanted to focus a little bit about our competitiveness in 
this clean energy new world. I was thinking that we had, in the 
1960s we had a space race, in the 1980s we had an arms race, 
and now we are in the middle of an energy race.
    I am one to think that we have to look at all kinds of 
energy sources, including nuclear, and I am glad that we are 
discussing that and that it will be, I believe, part of a 
solution.
    Last week, a fellow Minnesotan, Tom Friedman, published an 
article where he talked about how China's views on energy have 
changed over the years and that they have set some very 
aggressive standards. I think it is $462 billion in renewable 
energy by 2020.
    In each of the last few years, China has increased wind 
power by 100 percent. They are increasing solar power, and in 
fact, he quotes someone in this article, a guy named Hal 
Harvey, the Chief Executive of Climate Works. This guy says 
China is moving, they want to be leaders in green technology.
    China has already adopted the most aggressive energy 
efficiency program in the world. It is committed to reducing 
the energy intensity of its economy, energy used per dollar of 
goods produced, by 20 percent in 5 years. They are doing this 
by implementing fuel efficiency standards for cars that far 
exceed our own, and by going after their top thousand 
industries with very aggressive energy efficiency targets. And 
they have the most aggressive renewable energy deployment in 
the world for wind, solar and nuclear and are already beating 
their targets.
    I was just recently there with Senator McCain and Senator 
Graham and sort of scraped the surface on some of the energy 
issues there, but also visited some of the surrounding 
countries like Japan, which has been doing more with nuclear 
and we visited a nuclear reprocessing plant there, as well as 
in Vietnam where the Prime Minister of Vietnam said his No. 1 
issue is climate change for their country. So, you see concern 
growing in Asia, but you also see some of the solutions coming 
from Asia.
    I get very concerned that, while we may have won the space 
race and got all of the benefits out of it from the technology 
that came out of it from GPS monitors to pacemakers to CAT 
scans to those little chocolate space tics that my family used 
to take on camping trips in the 1970s, that if we do not really 
jump start the standards for energy efficiency and for new 
energy that we are going to fall behind, and we are going to 
lose this energy race.
    That is really where I am coming from in terms of looking 
at jobs in my own State where, as some of you may know, we have 
a very aggressive renewable portfolio standard, 25 percent by 
2025 and 30 percent for excel energy. And out of that has come 
a higher percentage of these energy jobs, the renewable energy 
jobs, in our State than other States.
    I think I saw a report recently that while jobs overall had 
increased something like 2 percent, we were at 11 percent for 
those clean energy jobs, and the rest of the country was at 9 
percent. I am sure that it has something to do with the fact 
that we worked on a bi-partisan basis with the Republican 
Governor and a Democratic legislature to get these aggressive 
standards through.
    So, I guess I would start with you, Mr. Doerr. You made a 
powerful statement your testimony that China is winning the 
race to lead the world in producing clean energy. What will it 
take to tip the scales back for U.S. entrepreneurs?
    Mr. Doerr. Thank you, Senator. I agree with all of the 
observations that you made. They are just right.
    Here is what I think it takes. Fifty years ago our country 
got a signal. The signal was Sputnik. It was a long-term 
signal. And it told us that America had fallen behind the 
Soviet Union in the race for innovative technologies. And 
because of that signal, in less than 10 years and, indeed, 40 
years ago last week, we put a man on the Moon. A coordinated 
effort throughout our country. No one would have thought it 
possible.
    We do not have, in our country, such a signal for clean 
energy or for innovation. And what it is going to take is for 
your committee, our Congress, to put in place a simple, clear, 
long-term signal that clean carbon energy is valuable and 
energy with carbon is more costly.
    Just enact a cap on carbon emissions, a price on carbon, 
and your action will be the signal, it will be the Sputnik for 
decades of innovation in our country, for our country and for 
the world.
    Senator Klobuchar. Mr. Krenicki.
    Mr. Krenicki. I have nothing to add other than I agree.
    I think you mentioned nuclear in Vietnam. We have four 
nuclear plants under construction, all in Asia, none in the 
United States. This is 4 years after the 2005 Energy Policy 
Act. So, nuclear needs help as well. And we are building a big 
manufacturing site in Hai Phong, Vietnam, precisely because it 
has a big market.
    Senator Klobuchar. I was there.
    Mr. Krenicki. It has a big market. We think Vietnam is 
going to be a big market where we will sell product into for 
the next 50 years. So, we agree.
    Senator Klobuchar. General Electric has been a leader in 
nuclear for many decades. What do you think we could do here? I 
know that the bill that the House passed has some incentives, I 
think the Chairman mentioned, for 200. What more do you think 
we could do in the Senate bill?
    Mr. Krenicki. I would say two things. One is this concept 
of allowing nuclear to be part of a cleaner energy standard 
could be very powerful, opening up the envelope and setting a 
higher target. So, giving companies more room to maneuver in a 
low carbon environment is one possible solution.
    The other is, the nuclear industry is heavily impacted by 
the financial crisis, so the level of loan guarantees if 
insufficient to re-start the industry. You know, $18.5 billion, 
that could build maybe three nuclear plants. Three nuclear 
plants do not create a U.S. nuclear industry. It creates an 
incremental export opportunity for non-U.S. nuclear suppliers.
    Senator Klobuchar. I mentioned that our State has this 
aggressive renewable standard, and it has created more jobs in 
our State. I have been disappointed by the House renewable 
standard. I just really do not think it is going to get us to 
where we want to go.
    Senator Snow and I have a bi-partisan bill which we put 
forward with a standard similar to what Minnesota has with 
expansive definitions of what would be counted. Could you 
comment on that? Why do you think it is important to increase 
the near-term target, and what are your thoughts on a longer 
term target?
    Mr. Krenicki. I think the reason it is important to 
increase the near-term target is that the industry is going to 
react to 2012 much more so than to 2025. In order to continue 
to grow this industry, and keep jobs increasing versus being 
cut in half, a 12 percent target by 2012 would keep that going.
    If I look at other countries as a proxy for where the 
United States could be, a country like Spain operates at well 
over 20 percent today. And they do not have a greater renewable 
energy resource than the United States. If you look at the 
U.S., it is blessed with tremendous renewable resource.
    Senator Klobuchar. So you are talking about non-nuclear, 
you are talking about solar, wind and these things----
    Mr. Krenicki. And biomass.
    Senator Klobuchar. And biomass. Geothermal, I do not know--
--
    Mr. Krenicki. Geothermal.
    Senator Klobuchar. So that is, we have waste energy, we 
include that in our bill. So, these other countries are much 
higher and have seen----
    Mr. Krenicki. Absolutely.
    Senator Klobuchar. And do you have job figures on them? 
What they have seen out of this?
    Mr. Krenicki. We could certainly provide that, but right 
now we believe roughly about 85,000 jobs have been created 
through 2008 and that is a trend that we think we would see 
continue over the next three or 4 years at 12 percent. If what 
was proposed today in the House bill or the Senate bill, we 
think at least half of those jobs would go away.
    Senator Klobuchar. OK.
    Mr. Wong, do you want to add anything?
    Mr. Wong. We definitely support a rigorous renewable energy 
standard because I think it demonstrates the farsightedness in 
that such signals will create new clean energy sectors and 
create jobs and unleash the innovation that we need. China has 
already embraced this.
    The U.S. has been stuck on a path of business as usual, 
especially for the past 8 years. Now we have the opportunity to 
turn the corner.
    In China, it is no longer business as usual. Since 2006, in 
the Eleventh Five Year Plan, they have thrown down the 
gauntlet. They have made energy efficiency a priority. They 
have made new energy development a priority. And as we know, 
the Eleventh Five Year Plan is like the 10 Commandments to the 
Chinese.
    And so, I think that we have to ask ourselves the question: 
do we want to be a buyer of clean technologies in the future, 
or the sellers? We really endorse the climate legislation that 
is before us, and we really urge the Senate to seize the 
economic opportunity.
    Senator Klobuchar. Mr. Alford, beyond the legislation, I 
know you do not agree with it, do you see the potential here 
for jobs with this new energy potential?
    Mr. Alford. I am on the record for saying I see a loss in 
jobs. I think the key is self-sufficiency, Senator. I do not 
think China is concerned about being the leader. They are 
trying to be self-sufficient. So should we.
    So, I think self-sufficiency is the key from a national 
security point of view, and I think we need to look at all of 
the aspects. Certainly, nuclear has got to be a key player in 
this. My Paris Chapter raves about nuclear energy. It is the 
salvation of their country. And Denmark is happy, and Spain is 
happy.
    We could be happy, too, if we just had a policy. And self-
sufficiency is the key.
    Senator Klobuchar. Homegrown energy. Mr. Krenicki, with 
Spain, it was not just nuclear, it is also renewables, is that 
right?
    Mr. Krenicki. Spain has been heavily renewables but also 
has some nuclear plants. It also has invested a lot of money in 
high efficiency gas turbines. So, state-of-the-art technology 
there is pushing 60 percent efficiency. They have been very 
active.
    Senator Klobuchar. OK. I have gone beyond my time. Thank 
you so much to all of you. It is helpful.
    Senator Boxer. Thank you, Senator. I am just going to ask a 
couple of questions, and then we are going to close this 
hearing.
    I thought that Senator Barrasso was interesting when he 
quoted Einstein and he said that you cannot predict the weather 
let alone try to predict the outcome of legislation. Well, that 
was his point. But here is the beauty of this. History; history 
does not lie.
    In the 1990 Clean Air Act Amendments, there was Edison 
Electric Institute, who is now supporting our efforts on cap-
and-trade, thank you, this is what they said in fighting the 
cap-and-trade bill back then. They said, we estimate that the 
acid rain provisions alone could cost electric utility rate 
payers $5.5 billion annually between enactment and the year 
2000, and increasing to $7.1 billion from 2000 to 2010. 
Therefore, the total costs to consumers from enactment by 2010 
could reach $120 billion.
    On the record, what happened? The exact opposite. Electric 
rates declined by an average of 19 percent from 1990 to 2006. 
Adjusted for inflation, they were still 5 percent lower than 
when the Clean Air Act Amendments were passed, and coal State 
residents saw rate decreases averaging 35 percent.
    Here is my point in repeating these historical facts. I 
think we need to learn that every time we move forward to clean 
up pollution there are all these dire predictions, loss of 
jobs, economy slowing down, gloom and doom. Honestly, every 
single time they have been proven wrong.
    And as I said, the Congressional Record is littered with 
the gloomers and doomers. You know, one thing I remember, I 
have served with four Presidents. And I remember that the thing 
about Ronald Reagan that everyone loved, you could not help but 
love, was this optimism that we are America, and we can do it.
    I have to say, Mr. Doerr, all of our panelists have been 
extremely effective in their rhetoric, their words, their 
vision, whether they are for or against, but you just said a 
few things in this that just spoke from the heart that I found 
to be extraordinary and would like to extract them from the 
record and really quote you as often as I can.
    This challenge presents this amazing opportunity. Even if 
the scientists were wrong, doing what we are doing is going to 
make us energy independent, as Mr. Alford has stated is 
important for us. It is part and parcel with what will result 
if we do this right.
    So, I wanted to put again into the record the rhetoric and 
the reality with the Clean Air Act Amendments.
    I also wanted to talk with Mr. Alford about his statement 
in the record that he read to us where he said, climate change 
is a vital issue that must be addressed. I assume that you 
believe that we should address climate change?
    Mr. Alford. Absolutely. That is a no-brainer. Something is 
going on out there, and we should address it. I think it is a 
no-brainer, climate change, the issue. How we go about doing 
it, that is the debate.
    Senator Boxer. Well, Mr. Alford, I want you to know that 
there are some people in the Senate that do not believe that it 
is really happening. I am happy to know, on the record, that 
you think something is going on and it has to be addressed. You 
said that quite clearly.
    You also said it will take time and cost money to mitigate 
humanity's influence on our climate. I do not think there is 
any disagreement.
    And then you said, the thing that concerns me and many of 
the 95,000 business members of the National Black Chamber, is 
that any legislation Congress enacts must consider the impacts 
that costs will have on small and minority-owned businesses, 
their ability to create jobs, and the impact on the communities 
they serve. Regretfully, the current legislation out of the 
House will negatively impact the vulnerable of our society.
    Now, I do not think you will find any disagreement that we 
believe that we do have to look at the impacts, not only on the 
small businesses in your organization, but all small 
businesses, whether they are minority-owned, majority-owned, 
whoever owns them.
    I am assuming that you think that we should spend our time 
looking at that impact, or some of our time. Is that correct?
    Mr. Alford. Certainly. You should spend much time looking 
at that impact.
    Senator Boxer. Good. I would like you to know that the bill 
we are putting together, the biggest priority is softening the 
blow on our trade sensitive industries and our consumers. I 
just want you to know that. That is the goal.
    Now, at the end of the day, your organization may not think 
we have not achieved it. But I also want you to know that with 
Waxman-Markey, and their analysis comes out with a different 
opinion than yours, shows that, the analysis by the 
Congressional Budget Office shows that the lowest quintile, the 
people you say are the most vulnerable, actually come out ahead 
by $40 due to the automatic refunds that people will be getting 
on their utility bills.
    The only thing I am asking from you, because we went at it 
pretty hard, is that I hope you will take a look at that 
analysis. And ask CRA to take a look at it as well. Would you 
do that and get back to me as to whether there is any change in 
your opinions?
    Mr. Alford. Madam Chair, I will do that.
    I have been around the block a few times. People are not 
going to get that refund. It is not going to hit them. People 
are going to be unemployed, and they are not going to have any 
recourse whatsoever. The Government will have failed them 
again.
    Also, I want to take you up on, I want our board to hold a 
board meeting in San Francisco, and the topic will be the green 
jobs of California, and we want to get on a bus and go see 
them.
    Senator Boxer. Absolutely.
    Mr. Alford. Yes, Madam.
    Senator Boxer. I have already called ahead to the Apollo 
Alliance, and I asked them if we can do something like this. We 
will decide where we want to go, both of us, together, and I 
definitely would like you to see Richmond Build and Solar 
Richmond because it is amazing.
    I also wanted to say that, when you raised the fact that 
you are a veteran, for which we are all deeply grateful, it 
reminded me of the days when my husband volunteered for the 
Army. He went in for active duty, and then for 6 years he was 
in the reserves. It brings back memories of those years of not 
knowing whether or not he would be called. It was the Berlin 
crisis, and we did not know. And the job insecurity. He was in 
law school. Would he have to leave, and if he came back?
    So, I want you to know that one of the other things I would 
like to do with you when we are out in California is to look at 
the reach out to the veteran's organizations that these groups 
are doing, because it is very heartening to see what they are 
doing. I am very excited at the fact that you have taken me up 
on my invitation.
    I also have another question. I think I have the answer, 
but I want to make sure that I understand you. I am sure you 
agree that, within each community, regardless of whom they are, 
there is diversity of opinion on this issue. Is that correct?
    Mr. Alford. Yes, Senator.
    Senator Boxer. OK. Because I did get a call from my friends 
at the House, and they said please put in the record the 
statement from the Chairwoman of the Black Caucus over there, 
just because they want to know there are differing opinions. 
They wanted it included in the record. So, I am going to do 
that.
    [The referenced statement was not received at time of 
print.]
    Senator Boxer. The heat that we felt in this debate is very 
strong. The reason is we all care so much about this country 
and its future. And there is such a divide on this issue. The 
reason I so want to do these hearings, even though they are not 
easy on any of us, you, me, my colleagues, is because we have 
to hear everybody's views. We have to see where people are 
coming from. We have to judge what is best.
    There is not book written on this. We are writing it. We 
are writing one of the chapters today. This is about the 55th 
hearing we have had on global warming, and we have more to 
come. So, you really are part of history, everyone here today. 
And I am ever so grateful.
    With that, I certainly feel that I have spoken enough, and 
I think all of you have had your opportunity. Does anybody on 
the panel want to say a final word in closing?
    If not, I want to thank you from the bottom of my heart for 
your patience, for your intelligence, for your eloquence, and 
we stand adjourned.
    [Whereupon, at 12:25 p.m. the full committee was 
adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
